<html>
<title> - CHINA'S RESPONSE TO AVIAN FLU: STEPS TAKEN, CHALLENGES REMAINING, AND TRANSPARENCY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 CHINA'S RESPONSE TO AVIAN FLU: STEPS TAKEN, CHALLENGES REMAINING, AND 
                              TRANSPARENCY

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-672                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON SMITH, Oregon                 FRANK R. WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  SANDER LEVIN, Michigan
CARL LEVIN, Michigan                 MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         SHERROD BROWN, Ohio
BYRON DORGAN, North Dakota           MICHAEL M. HONDA, California
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Clifford, John R., Deputy Administrator for Veterinary Services, 
  Animal and Plant Health Inspection Service, U.S. Department of 
  Agriculture, Washington, DC....................................     2
Elvander, Erika, Office of Global Health Affairs, U.S. Department 
  of Health and Human Services, Washington, DC...................     6
Gill, Bates, Freeman Chair in China Studies, Center for Strategic 
  and International Studies, Washington, DC......................    11

                                APPENDIX
                          Prepared Statements

Clifford, John R.................................................    30
Elvander, Erika..................................................    32
Gill, Bates......................................................    36


                     CHINA'S RESPONSE TO AVIAN FLU:
          STEPS TAKEN, CHALLENGES REMAINING, AND TRANSPARENCY

                              ----------                              


                       FRIDAY, FEBRUARY 24, 2006

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The Roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2200, Rayburn House Office Building, David Dorman 
(Senate Staff Director) presiding.
    Also present: John Foarde, House Staff Director; Carl 
Minzner, Senior Counsel; William A. Farris, Senior Counsel; 
Pamela N. Phan, Counsel; and William Leahy, Research Associate.
    Mr. Dorman. All right. It is 2 o'clock. Let us get started.
    First of all, I would like to thank everyone in the 
audience, and in particular, our very distinguished panel 
today, for coming to this Issues Roundtable of the 
Congressional-Executive Commission on China entitled, ``China's 
Response to Avian Flu: Steps Taken, Challenges Remaining.''
    Before we get started, I would like to tell everyone in the 
audience about a hearing that the Commission is going to have 
on March 6 from 2 to 3:30 p.m. in Dirksen 419. The title of 
that hearing will be: ``Combating Human Trafficking in China: 
Domestic and International Efforts.'' The announcement went out 
today. If you would like more information, you can find it on 
the CECC Web site.
    As has been standard practice for the Commission, I will 
make a brief statement, then I will introduce each of our 
panelists and give each of them in turn 10 minutes to make an 
opening statement. After each of our witnesses has made his or 
her opening statement, I will start with a question to the 
panel, and then give each staff member on the dais an 
opportunity to ask a question and hear an answer, and we will 
continue that process until we reach 3:30, or run out of 
questions.
    John Foarde told me this morning this might be our 52nd or 
53rd roundtable since the Commission began operating in 2002; 
to date we have never run out of questions, so I am quite sure 
that we will be able to continue our discussion for 90 minutes.
    With that, let me get started with a short opening 
statement, and then I will introduce our panelists.
    Chinese authorities recorded over 30 outbreaks of avian 
influenza in poultry stocks in 2005, and have also confirmed 11 
human cases of bird flu since November 2005.
    In response, the central government has appropriated over 
US $200 million for the creation of a nationwide avian flu 
command center, initiated avian flu emergency management plans, 
and 
reported outbreaks to international health organizations in a 
generally timely manner. Local officials have also culled and 
vaccinated millions of poultry in affected areas. Still, health 
experts consider China to be one of the prime incubators for a 
potential human influenza pandemic. Concerns also exist about 
the degree of transparency in Chinese Government reporting on 
some of the outbreaks.
    In its 2005 Annual Report, the Commission found that 
China's State Secrets Law and related regulations hinder the 
free flow of information on public health matters, both within 
China and to the outside world. The Commission also found that 
Chinese Government control over the flow of information had 
hampered international efforts to combat the spread of the H5N1 
avian flu virus.
    This Commission roundtable will assess the current status 
of China's domestic efforts to address avian flu and the degree 
of Chinese Government cooperation with international agencies 
and 
bilateral partners in dealing with the same problem.
    Once again, I would like to thank our distinguished panel 
today for joining us.
    With that, I will start with our first Executive Branch 
witness, Dr. John Clifford. Dr. Clifford is Deputy 
Administrator of the Animal and Plant Health Inspection 
Services' [APHIS] Veterinary Services program, U.S. Department 
of Agriculture [USDA]. As Deputy Administrator for Veterinary 
Services, Dr. Clifford is USDA's chief veterinary officer. In 
this position, he provides leadership for safeguarding U.S. 
animal health and is the United States representative to the 
International Animal Health Organization [OIE].
    Before becoming Deputy Administrator in May 2004, Dr. 
Clifford served as Acting Deputy Administrator of Veterinary 
Services. He also served as the Associate Deputy Administrator 
of Veterinary Services' National Animal Health Policy and 
Program staff, where he led efforts to protect, sustain, and 
improve the productivity, marketability, and health of the 
nation's animals, animal products, and biologics. Dr. Clifford, 
thank you for coming today. You have 10 minutes for your 
opening statement.

  STATEMENT OF JOHN R. CLIFFORD, DEPUTY ADMINISTRATOR FOR THE 
    ANIMAL AND PLANT HEALTH INSPECTION SERVICES' VETERINARY 
 SERVICES PROGRAM, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
                               DC

    Mr. Clifford. Thank you very much for the opportunity to be 
here today. We in the Federal Government take the threat posed 
by avian influenza very seriously and we are committed to 
working to carry out the President's National Strategy for 
Pandemic Influenza.
    USDA has many key roles to play, as outlined in the 
National Strategy. In my mind, though, one of the most 
important is our involvement overseas to help affected 
countries take steps to combat the Asian H5N1 highly pathogenic 
avian influenza virus at its source in poultry populations. 
Representatives attending last month's International 
Ministerial Pledging Conference on Avian and Human Pandemic 
Influenza in Beijing, China, also recognized the importance of 
a coordinated global effort to address this disease.
    According to the European Commission, co-sponsor of the 
conference, along with the World Bank and the Chinese 
Government, a total of $1.9 billion was pledged by the 
attending countries. This funding will help affected countries 
fight outbreaks of the Asian H5N1 influenza virus, and also 
assist neighboring countries in efforts to prepare for any 
related human health issues. During the conference, President 
Bush announced that the United States will provide substantial 
funding, $334 million, to support the global campaign against 
avian influenza. This represents the largest single national 
contribution thus far to these global efforts.
    Resources will be used, among other things, to assist 
countries with national preparedness plans, improve 
surveillance and response systems for domestic poultry, and 
provide assistance in 
establishing wild bird surveillance programs.
    As part of this funding that I just mentioned, USDA 
received $18 million to advance collaboration with 
international organizations to help countries in Southeast Asia 
take steps to enhance the veterinary infrastructure and adopt 
other practical, effective programs against H5N1 Asian strain.
    My boss, APHIS administrator Dr. Ron DeHaven, has traveled 
recently to Southeast Asia to assess the animal disease 
situation in several countries and the steps being taken in 
response. The information and observations he collected are 
helping USDA develop its plan to work with international 
organizations, primarily the United Nations' Food and 
Agricultural Organization, to deliver the best possible 
technical assistance to these countries.
    By effectively combating this disease in birds, I am 
confident that we can help lower the virus load in countries 
and prevent spread to humans, thereby reducing the likelihood 
that this particular high-pathogenic AI will mutate into a 
virus capable of spreading not only from birds to humans, but 
then from person to person.
    Before I speak more about the international efforts, 
including those related to China, I would just like to say a 
few words about the steps we are taking domestically to protect 
against the introduction of Asian strain H5N1 in the U.S. 
poultry populations. These programs, many of them longstanding, 
are every bit as critical as the efforts we are undertaking 
overseas to help to protect the United States. USDA is keeping 
potentially infected poultry and poultry products from 
countries affected by Asian H5N1 virus out of the United States 
through import restrictions. We quarantine and test all live 
birds imported into the United States to 
ensure that they are disease-free. We carry out an aggressive 
surveillance program that looks for any signs of illness in the 
commercial U.S. poultry flock. We are also on the lookout for 
smuggled birds or products from overseas that could harbor the 
disease. USDA also maintains a stockpile of avian influenza 
vaccine should the need arise to vaccinate commercial poultry 
as part of a virus control and eradication effort.
    We are making sure that the State-level responses in the 
event of a disease detection are constantly updated and take 
into account all the steps necessary to address the situation. 
In total, the funding I mentioned a moment ago also directs $73 
million to USDA to enhance these, and other, domestic avian 
influenza-related efforts.
    I think the best way to frame our discussion of avian 
influenza in China is to trace significant developments in 
chronological fashion, and then I will be happy to answer your 
more specific questions. Evidence seems to suggest that the 
Asian H5N1 AI virus emerged in Southern China and Hong Kong in 
1997. We know, too, that the virus did not start causing 
mortality in large numbers of birds in China until late 2003. 
In response to the escalating animal health situation, in 
January 2004, APHIS and the U.S. Centers for Disease Control 
and Prevention issued emergency import restrictions on poultry 
and poultry products from China and seven other countries in 
East and Southeast Asia.
    It is important to note here, however, that APHIS has had 
longstanding prohibitions in place on live poultry and poultry 
products from China, as well as most other Asian countries, due 
to the widespread presence of exotic Newcastle disease, another 
significant poultry disease in that region of the world. So, no 
significant quantities of live poultry or poultry products from 
China or other countries in Southeast Asia were being imported 
into the United States.
    Again, though, in 2004, we felt it a prudent step to issue 
the emergency import restrictions due to the threat that the 
Asian H5N1 virus poses to animal health, as well as concerns by 
public health officials that the virus could potentially have 
human health implications. Later, in 2004, APHIS placed 
restrictions on imports from all countries reporting detections 
of Asian strain H5N1 in poultry, and these further restrictions 
prohibit the importation of all live birds, including those 
previously allowed entry provided that the birds went through a 
lengthy post-entry quarantine period; all feathers and feather 
products, including those treated overseas or imported into the 
United States for treatment; and processed or rendered poultry 
products for human use or consumption.
    In the summer of 2004, China requested that APHIS consider 
regionalizing the country to enable the trade of poultry and 
poultry products from areas of the country unaffected by Asian 
H5N1 virus. Regionalization is a tenet under the World Trade 
Organization's [WTO] sanitary and phytosanitary agreements. 
APHIS 
considers all such requests and, in order to do so, we 
requested on several different occasions that the Chinese 
Government provide us with information on the disease situation 
in the country and steps take in response.
    To date, the Chinese Government has not provided us with 
this information; therefore APHIS has been unable to begin 
considering the regionalization request. I would also add that, 
while China has reported cases of the disease to the World 
Organization for Animal Health, the OIE, there has been no 
independent verification of those reported detections by 
agencies outside of China.
    We commend Chinese authorities for reporting detections to 
the OIE, but we also feel that officials need to be more 
transparent and forthcoming with information on surveillance 
testing, disease control and eradication measures, and related 
information. Along these same lines, I would like to 
acknowledge China's lifting of its import ban on all U.S. 
poultry and poultry products, which was put in place following 
the detection of the high-pathogenic avian influenza virus in a 
flock of 6,600 birds in Texas in February 2004. That detection 
was quickly contained and eradicated without any further spread 
to poultry or any human health implications. It is a testament 
to the excellent surveillance and emergency response plans we 
have in place for serious poultry diseases here in the United 
States.
    APHIS provided the Chinese Government with information on 
the detection and related issues in August 2004, and Chinese 
officials removed the ban in October 2004. U.S. product began 
moving to the country again in January 2005.
    As I said at the outset of my remarks, USDA believes that a 
coordinated effort to address Asian H5N1 avian influenza in 
poultry populations in affected countries is the most important 
step that could be taken to prevent a pandemic situation. In 
support of this international coordination, APHIS and USDA 
officials have certainly been keeping an active international 
travel schedule. In July 2005, we attended the Symposium on 
International Animal Health Standards for the member countries 
of the Asia-Pacific Economic Corporation group, as well as the 
October 2005 meeting of senior officials from the International 
Partnership on Avian and Pandemic Influenza, a group of key 
nations and international organizations launched by the United 
States in September 2005.
    In addition, USDA participated in a November 2005 meeting 
on avian influenza and human pandemic organized by the OIE, the 
Food and Agricultural Organization [FAO], and the World Bank. 
We were also part of the WHO's December 2005 meeting to develop 
an international unified strategy to control Asian H5N1 virus 
in birds.
    In regard to China, APHIS and USDA officials met with their 
counterparts in Beijing in November 2005 as part of a poultry 
health symposium. Much discussion took place on issues such as 
regulatory measures, disease surveillance, and international 
animal health requirements for the disease. The meeting was 
followed by a WTO ministerial meeting in Hong Kong in December 
2005. During the meeting, an annex was approved for a 
Memorandum of Understanding already in place between USDA and 
the Chinese Ministry of Agriculture. The annex details the 
formulation of working groups that will meet on a regular basis 
to discuss technical animal and plant health issues. We are 
currently working to arrange the first meeting of the Animal 
Health Working Group, and our goal is to engage in a sustained 
dialogue with our Chinese counterparts on many important 
issues. Chief among them is domestic surveillance in China for 
Asian H5N1 avian influenza.
    It is our strong desire that this type of regular 
communication with Chinese officials will help encourage 
further transparency on the animal disease front. It is our 
hope, too, that China will engage more fully in international 
efforts to formulate effective strategies against Asian H5N1 
avian influenza virus.
    With that, I conclude my statement. Thank you, again, for 
the opportunity to be here today.
    [The prepared statement of Mr. Clifford appears in the 
appendix.]
    Mr. Dorman. Dr. Clifford, thank you very much for that very 
useful and interesting testimony.
    I would like to introduce our next witness from the 
Executive Branch, Ms. Erika Elvander. Ms. Elvander is from the 
Office of Asia and the Pacific, Office of Global Health Affairs 
at the U.S. Department of Health and Human Services [HHS]. Ms. 
Elvander has coordinated East Asia and Pacific policies since 
2001 for the Office of Global Health Affairs, Office of the 
Secretary, U.S. Department of Health and Human Services. She 
currently focuses on bilateral and multilateral U.S. health 
cooperation with a number of key countries in the region, 
including China, Japan, the Republic of Korea, Singapore, 
Thailand, Vietnam, and the U.S. territories in the Pacific, and 
with the Freely Associated States. The bilateral activities 
touch on a number of important disease issues, but recently 
have included Severe Acute Respiratory Syndrome [SARS], HIV/
AIDS, pandemic and avian influenza, and tuberculosis [TB].
    Ms. Elvander, thank you very much for joining us today. You 
have 10 minutes for your opening statement.

 STATEMENT OF ERIKA ELVANDER, OFFICE OF ASIA AND THE PACIFIC, 
             OFFICE OF GLOBAL HEALTH AFFAIRS, U.S. 
    DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Elvander. Thank you so much for having me.
    In December 2003, the global community learned of reports 
from Korea of its first-ever cases of Avian Influenza (A) H5N1. 
Shortly after this, H5N1 appeared among poultry in a number of 
countries in East Asia, including Thailand, Vietnam, and China. 
Since then, H5N1 has spread to Central Asia, Europe, and the 
Middle East. As we know, in recent weeks Nigeria reported the 
deaths in its northern provinces of over 40,000 birds from 
H5N1, bringing the disease to Africa.
    In addition to these avian cases, human cases are appearing 
sporadically across the globe. As of February 20, 2006, the 
World Health Organization [WHO] confirmed 170 human cases, of 
which 92 have been fatal. In all but a very few cases, all 
confirmed human cases could be linked to contact with sick 
poultry or animals.
    While 92 human deaths may not be considered significant in 
the context of other diseases such as tuberculosis and HIV/
AIDS, the high rates of mortality, the lack of predictability 
about who could contract the disease, and fears of genetic 
changes within the virus cause great concern about human cases 
of H5N1.
    Globally, the emergence of a new strain of influenza with 
pandemic potential has public health officials extremely 
concerned. Thus, multilateral organizations such as the World 
Health Organization, the World Organization for Animal Health, 
and the Food and Agricultural Organization of the United 
Nations, as well as larger donor governments such as the United 
States, Japan, and the European Union, have begun to apply 
political pressure and provide financial and technical 
assistance to help countries around the world affected by the 
animal disease epidemic in hopes of stemming a possible human 
pandemic.
    H5N1 is one of many strains of influenza, or flu, of which 
only some affect humans, or birds, or both, and some that 
affect other species. Not all strains are highly infectious or 
cause high rates of morbidity or mortality, but the mere fact 
that influenzas change and mutate is why specialists carefully 
watch flu strain patterns every year to predict which strains 
will be responsible for the regular, seasonal human flu, which 
causes about 36,000 deaths in the United States a year.
    Beyond seasonal flu, H5N1 specifically is of concern for a 
couple of reasons. First, flu pandemics tend to come in cycles 
of 30 to 50 years. The ``Spanish'' flu of 1918 is thought to 
have caused between 20 and 100 million deaths worldwide, and 
more than 500,000 deaths in the United States. While subsequent 
pandemics have been less deadly--the last true flu pandemic 
occurred in 1968 and caused 1 million deaths worldwide--the 
specter of the 1918 pandemic lingers on.
    Second, the H5N1 strain in circulation among animals seems 
to cause extremely high rates of mortality among humans. Third, 
while vaccines specific for H5N1 are in development, they are 
still being tested and, if proven to be effective, will take 
time to manufacture and distribute. In the interim, other 
drugs, such as amantadine and oseltamavir, commonly known as 
Tamiflu, are in limited supply and are of limited use.
    While it is clear that direct exposure to diseased birds 
seems to be a necessary link in humans contracting disease, 
other information about how, when, and why H5N1 causes disease 
in its human victims is still a mystery. The ability of flu 
viruses to mutate quickly causes public health officials to be 
on the lookout for sustained effective human-to-human 
transmission. This makes health ministers lose sleep at night, 
and their agricultural counterparts toss and turn, worrying 
about the drop in trade that the die-offs in poultry are 
causing.
    H5N1 has appeared before and, as my colleague from 
Agriculture noted, it first appeared in Hong Kong in live bird 
markets in 1997. Appearing to only affect chickens at first, 
public health officials became alarmed when six people died 
from it. Alarmed by what appeared to be a possible harbinger of 
a pandemic, the Hong Kong health authority, led by Dr. Margaret 
Chan, now with the WHO, made the courageous decision to order 
the destruction of every single chicken, duck, and egg in Hong 
Kong. Over 1 million birds were culled, and human cases of H5N1 
seemed to abate at 18 cases and 6 deaths.
    Biosecurity measures in live markets were put in place that 
ensured better separation between humans and poultry, and 
policies were instituted that ensured tissue and blood samples 
from every shipment of poultry from China--mostly Guangdong and 
Shandong provinces, where most poultry in Hong Kong 
originates--were taken and tested for H5N1. The goal was an 
effective animal surveillance system that would catch as 
possible outbreak before human cases could occur.
    H5N1 did reappear in February 2003, when two human cases 
were detected in Hong Kong from travelers returning from 
Southern China, suggesting that H5N1 was circulating, at least 
among domestic poultry, during the prior year.
    While the Ministry of Agriculture of China never officially 
confirmed new avian cases linked to these human cases, these 
cases were quickly overshadowed by what became the Severe Acute 
Respiratory Syndrome, or SARS, outbreak that dominated public 
health and global media attention that spring and summer. When 
Korea reported its first case of H5N1 in December 2003, the 
current outbreak officially began.
    A couple of words on Hong Kong. Hong Kong is, of course, a 
unique situation. In 1997, it became a Special Administrative 
Region of the People's Republic of China. However, with the 
``one country, two systems'' policy, it is still, to a large 
extent, an economic entity entirely separate from the mainland, 
with different 
infrastructures, business practices, and economic development. 
China cannot afford to lose the technological, economic, and 
academic advantages that Hong Kong brings to it, and thus 
allows it to continue to function, at least economically, at 
some level on its own. Furthermore, Hong Kong is always at 
``Code Orange'' for avian influenza, and as such maintains 
animal husbandry and biosecurity practices far different than 
most of rural mainland China.
    As such, until as recently as last month, Hong Kong managed 
to keep itself relatively H5N1 free, even in the face of 
continued outbreaks around it in the surrounding areas. And 
while no human cases from Hong Kong have been reported since 
2003, it has an urban population still smarting from the 
memories of SARS, the economic wherewithal to pursue these 
high-level biosecurity measures, the geographic limits, and the 
community will to maintain this so-called ``orange alert'' 
status for H5N1.
    Now, as many of you know, recently Hong Kong reported H5N1 
cases in native magpies, which has caused great concern for 
local health authorities, who fear H5N1 may have been brought 
to Hong Kong from the mainland, and worse yet, that H5N1 may 
now be endemic within the territory. Indeed, scientists support 
their suspicions of importation of the disease from China, as 
recent studies from Hong Kong, but funded from HHS's National 
Institutes of Health, have demonstrated that the H5N1 virus 
endemic throughout China is the likely source of outbreaks 
among poultry in surrounding countries and territories.
    Now, then, to China. As you know, about 60 percent of its 
population lives in rural areas. There are--or rather, were--15 
billion domestic fowl in China last year. That is to say, one-
fifth of the world's poultry--mostly chickens, but also 
significant numbers of ducks, turkeys, and geese that are 
raised for domestic consumption come from China. China has both 
large-scale production facilities and family backyard farms. 
Indeed, most rural families have about 10 to 25 chickens and 
ducks which are kept for food and income.
    So what is a country, scared by their SARS experience and 
faced with an economic and possible public health disaster like 
H5N1, to do? As my colleague from USDA has already mentioned or 
discussed, outbreaks amongst birds must be contained; 
monitoring and reporting of suspect animal and human cases must 
continue in a transparent manner. However, given that most 
strategies for containment among birds include the culling and 
eradication of flocks where exposure to H5N1 is suspected, 
posing a huge loss for farmers, the disincentives for reporting 
animal cases are high. Compensation for lost flocks is a 
complicated issue that an economist can address far better than 
I can, or will. Moreover, for countries that export poultry, 
and China is one of them, mostly to Japan and Hong Kong, 
reporting cases to the international community can be viewed as 
a trade risk and economic considerations sometimes take 
precedence over public health concerns.
    Having said that, I think that lessons learned from HIV and 
SARS both appear to have encouraged Chinese authorities to 
recognize the need to investigate openly and report at least 
suspect human cases of H5N1.
    Up until the summer of 2002, China continued to deny that 
HIV/AIDS had epidemic potential within its borders, preferring 
to place blame on outside forces. As my colleague from CSIS 
knows too well, U.N. organizations, donor countries, as well as 
NGOs such as CSIS, applied both public and private pressure on 
the government of China, trying to convince officials that the 
economic and health impacts of not acknowledging and dealing 
with the burgeoning HIV/AIDS problem were far greater than 
continuing to deny it.
    As a result, Chinese officials began to open up 
internationally--and more importantly, domestically--about HIV/
AIDS in China, and within a year China had successfully 
competed for a $32 million two-year grant for HIV from the 
Global Fund to Fight HIV, TB, and Malaria. At the same time, 
the United States and other donors made financial commitments 
to China's Ministry of Health for both research and technical 
assistance in confronting HIV. China had learned that openness 
about public health issues of global concern would not 
necessarily bring shame, but might actually bring financial 
resources.
    However, the lessons from HIV/AIDS did not seem to apply 
until late in the game with SARS. Reports of a strange new 
respiratory illness with high levels of mortality began to 
appear in late February 2003. When what became the SARS 
outbreak finally ended later that summer, over 8,000 cases 
would be reported, with 775 deaths in 30 countries and 6 
continents.
    As noted earlier, public health practitioners were 
originally concerned that the SARS outbreak was the next flu 
pandemic, and indeed, two early suspect SARS cases proved to be 
H5N1. Early on, Chinese officials were concerned about the 
impact and outbreak that a disease of unknown origin would have 
on travel on the Chinese New Year, the largest travel day of 
the year worldwide. The government chose to delay entry to 
international experts and continued to question if SARS had 
epidemic potential domestically. It was only when rumors about 
the disease began to have an impact on tourism, as well as 
rising international outcry at cover-ups, that China opened its 
borders to scrutiny, but as usual, in a carefully monitored and 
controlled fashion.
    By the end of the SARS outbreak, according to the World 
Bank, the impact on the Gross Domestic Products of countries in 
the 
region was between 0.4 and 0.5 percent, or between $20 and $25 
billion for the region, not limited just to China. In the 
process, a number of high-level Chinese officials, including 
the Minister of Health and the Mayor of Beijing, lost their 
jobs.
    And yet, embarrassingly for China, it was not over yet. In 
March 2004, an accident at the National Institute of Virology 
in Beijing, China's premier virology laboratory, infected two 
researchers with SARS and the Institute closed.
    I note that China's idea of transparency and openness is 
still one with a degree of control involved. All decisions and 
reports on human cases are made by the central government, not 
by local officials, which can add time to official 
announcements; further anecdotal reports suggest that some 
restrictions have been placed on the press.
    I also want to note that when the first suspect human case 
of H5N1 finally appeared in late October 2005, the Ministry of 
Health engaged the international community by inviting 
outsiders in to work side by side with Chinese experts in 
investigating the cases. Government announcements come with 
clearly defined solutions already in place, suggesting that the 
government has the situation under control. Nevertheless, the 
Ministry of Health's willingness to open itself to 
international scrutiny is a huge step, and China has been 
publicly praised internationally and promised further 
assistance in dealing with human cases.
    Unfortunately, the lessons learned from SARS by the 
Ministry of Health do not seem to have translated well to the 
Ministry of Agriculture, as my colleague from USDA has noted. 
When wild birds began dying in Qinghai province in April 2005, 
the Ministry of 
Agriculture delayed allowing international scientists and 
observers into the actual areas where the deaths had occurred, 
citing so-called security concerns, although the deaths were 
largely in nature preserves.
    Finally, late last summer, as wild and domestic birds 
continued to die across China, international observers were 
invited to see the veterinary lab in Harbin, which had tested 
tissue samples. The Ministry of Agriculture continued to refuse 
to share samples with international bodies, and, equally 
challenging, continues to refuse to share samples with the 
Ministry of Health, claiming flatly that this is not a human 
health issue, but rather a trade issue.
    While the Ministry of Agriculture has recently been more 
forthcoming with reports of outbreaks, the timing of its 
willingness to share seems to coincide with both reports of 
human cases, large-scale ministerial poultry vaccination 
campaigns, and Premier Wen Jiabao's January 2006 commitment at 
the Beijing Donors Conference to cooperate with the 
international community.
    There is no question that we see an increased level of 
commitment and cooperation by the Chinese Government. Both in-
country coordination between Ministries and communication with 
outside organizations have improved. More importantly, the 
Ministry of Health has shared samples from human cases through 
the WHO network.
    However, it is important to point out that human cases of 
H5N1 in China are often recognized before recognition of 
disease in poultry in the same locales, indicating the 
shortcomings of the animal surveillance system. In some of the 
human cases reported over the past few months, the victims came 
from regions in which no previous bird infections had been 
reported, even though the transmission occurred from contact 
with infected poultry.
    China has also recently begun a policy of being both a 
donor and a recipient of international assistance, reaching out 
politically and financially to partners in the region and, even 
at the Beijing Pledging Conference last month, made a point of 
being a donor as well as a recipient.
    We have already referenced what the U.S. Government is 
doing. What I would simply say is that, in 2004, HHS alone 
funded more than $34 million worth of biomedical research in 
basic public health activities with China, and we foresee this 
figure increasing, not decreasing. The U.S. Government recently 
established a platform with China, the program of emerging and 
reemerging into diseases that will promote cooperation between 
the two countries on a number of infectious diseases, but first 
on avian flu. In part of that, HHS will be assigning three new 
staff to China to work specifically on emerging diseases.
    It is our belief that by working with China as a partner to 
confront issues of public health import such as avian flu, we 
will be able to create an environment that will not only 
promote scientific and biomedical transparency and sharing of 
data, but also will improve China's public health surveillance 
and disease reporting network so that epidemics may be 
prevented and contained, not left to fester quietly.
    I would also encourage everyone to go to a number of good 
Web sites, including www.pandemicflu.gov, which is the U.S. 
Government's primary site for all things related to flu, and 
there are a number of others as well.
    I will answer any questions. Thank you for your time.
    [The prepared statement of Ms. Elvander appears in the 
appendix.]
    Mr. Dorman. Good. Thank you very much for that testimony. 
It will generate, I am sure, many questions in the next hour. 
Thank you.
    I would like to introduce, next, Dr. Bates Gill.
    Dr. Gill is the Freeman Chair in China Studies at the 
Center for Strategic and International Studies. Dr. Gill has 
held the Freeman Chair in China Studies at the Center for 
Strategic and International Studies since July 2002. He 
previously served as a Senior Fellow in Foreign Policy Studies, 
and inaugural Director of the Center for Northeast Asian Policy 
Studies at the Brookings Institution. A specialist in East 
Asian foreign policy and politics, his research focuses 
primarily on Northeast Asian political and social issues, 
especially with regard to China. His current projects focus on 
U.S.-China-European Union relations, on China as a growing 
influence in Asian regional affairs, and on China's challenging 
domestic policy agenda, especially with regard to the social 
safety net and China's HIV/AIDS crisis.
    Thank you very much for joining us today, Dr. Gill. You 
have 10 minutes for an opening statement.

STATEMENT OF BATES GILL, FREEMAN CHAIR IN CHINA STUDIES, CENTER 
    FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Gill. Thank you very much, Mr. Dorman. Let me also 
thank the Commission chairmen and the whole staff for inviting 
me to provide my views this afternoon. I commend very much the 
Commission for taking up these issues and look forward to 
having a discussion with you on them.
    It is clearly a very important and timely topic. We have 
noted already that the disease has spread from Asia, to the 
Middle East, Europe, and Africa, and the prospect, of course, 
that it may, in the coming season or beyond, spread in a more 
deadly way into the Americas and elsewhere. The World Bank has 
made an estimate that the first year of an avian flu pandemic 
could cost the world economy up to $800 billion.
    Given the interest of the Commission, and given topics 
which have already been covered by my two colleagues, I would 
just like to briefly touch on three areas.
    First, some of the issues of the current situation 
concerning avian flu in China which maybe we have not discussed 
quite yet; some of the steps that the Chinese Government has 
put in place; and I would like to focus most of my remarks on 
what I think might be of most concern to the Commission, and 
that is the challenges that are remaining in China's approach 
to avian flu, and what is being done about it, especially 
within the government and among civil society.
    China is not only the most populous Nation in the world, as 
we have heard, it also has the most poultry. According to the 
Food and Agricultural Organization of the United Nations, fully 
one-fourth of the world's chickens, two-thirds of the world's 
domesticated ducks, and a remarkable nine-tenths of the world's 
domesticated geese are living in China.
    Now, just the sheer size of the populations, both human and 
among poultry and birds, makes China a pivotal point for all of 
us to consider the potential spread of this disease.
    According to the World Health Organization, as of February 
13, 2006, China reported the country's 12th laboratory-
confirmed case, and eight of those have been fatal. I find it 
interesting that cases have now occurred in a pretty widespread 
area in China, covering seven different provinces, including 
Anhui, Fujian, Guangxi, Jiangxi, Hunan, Liaoning, and Sichuan.
    As has already been noted by Ms. Elvander, another 
interesting point I think we should take note of is that about 
one-third of China's reported human cases thus far have 
occurred in areas where there were no reported poultry 
outbreaks. This is, I think, some cause for concern going 
forward.
    Second, what steps have been taken? I agree with my 
colleagues that, generally speaking, we should all be 
encouraged that, at least in comparison to China's response to 
other infectious diseases, such as HIV/AIDS, and of course the 
SARS outbreak of 2003, this time, I think, Beijing deserves 
some praise for its efforts to control the avian flu. Senior 
officials at international organizations, as well as from 
across governments, are generally positive that at the central 
level, at least, there has been a strong political commitment 
to tackling the avian flu problem.
    A number of specific steps have been taking in organizing 
the bureaucracy, at the central level, at least, to address 
this problem more effectively, including the announcement of 
specific contingency plans by the Ministry of Health in 
September 2005.
    Also, I found it interesting that the State Council, at the 
early part of this year, announced national response plans for 
nine different types of emergencies, one of which included 
public health incidents, thereby putting the central government 
very strongly on the record and mobilizing bureaucracies to be 
more responsive in an emergency mode as different crises might 
emerge, including on the health front. Also, official 
structures within the bureaucracy have been established beyond 
just simple pronouncements. The Ministry of Health has set up a 
special department, apparently, to deal with avian flu. The 
Ministry has also established 192 monitoring spots throughout 
the country to try and cover the potential for flu outbreaks. 
Following the State Council's emergency response plans, the 
Ministry of Health announced the formation of a national expert 
team, consisting of some 105 experts, which could be quickly 
brought together, mobilized, and sent to areas of concern, 
should, and when, there be outbreaks of disease.
    I think all of these steps are obviously to be welcomed. I 
would say that it is still too early to know, having been only 
about a half a year that these various steps have been taken, 
to know how effective it would be in the case of a real 
emergency.
    I would also remind all here of the traditional difficulty 
that a stovepiped bureaucracy in China has had in trying to 
effect cross-bureaucratic cooperation, not unfamiliar to us 
here in our country, but China seems to be especially 
difficult, having invented the bureaucracy so many thousands of 
years ago. This point, I think, is critical, because obviously 
one single ministry, in the case of an avian flu outbreak, 
cannot possible be capable of addressing the emergency on its 
own.
    On the international cooperation front, too, I think 
Beijing should be commended, especially for hosting the 
International Pledging Conference, and pushing ahead on a 
Beijing Declaration resulting from that conference, which has a 
number of effective recommendations. It calls for increased 
cooperation and openness across the international community.
    Let me spend the rest of my time talking about what we 
might call the remaining challenges. I see three big 
challenges. All of these are areas in which the United States 
and China can cooperate, and I think all of these are areas 
about which the Commission has particular interest.
    During the SARS outbreak two years ago, we saw China 
encounter intense criticism from the international community 
for its 
delayed response and its cover-up in the initial stages of the 
epidemic. This time around we do see some improvement, but 
there are lingering problems about which we should be 
concerned. First is transparency. Fearful of censure, Chinese 
provincial and county officials sometimes might choose to 
conceal infection outbreaks from the central government. That 
was surely the case during the SARS outbreak. Additionally, as 
has been already noted, predominantly poor Chinese farmers will 
be often reluctant to report potential health risks, giving 
them an incentive to hide an outbreak for economic reasons.
    I would point, too, to the recent benzine spill in the 
Songhua River in northeast China as an example of how local 
authorities will, at least in the early stages, seek to 
suppress bad news.
    Second, we have to talk about technical capacity and 
financial resources. Even with the degree of political 
commitment, which I think we can be convinced of, at the 
central levels in Beijing, the lack of capacity and resources 
at local levels remains a very large question mark in China's 
handling of avian flu. This is particularly so since we can 
expect that, should major outbreaks occur, they are going to 
occur in rural and poorer parts of the country.
    None other than Health Minister Gao Qiang himself has 
identified his largest concern about this in a press conference 
in November 2005. He said, ``the inability of our medical and 
quarantine 
personnel at the local level to diagnose and discover epidemics 
in a timely fashion due to lack of skills and relatively 
backward equipment is my largest concern.'' The country still 
faces a shortage of experienced and qualified professionals, 
resulting in misdiagnosed patients, some of whom were said to 
have pneumonia instead of avian flu. There is a great need for 
qualified and experienced veterinarians, especially in the 
rural areas. Meanwhile, many villages and towns do not have 
effective surveillance systems; recall that they have only set 
up 192 of them in a country as vast as China. Also, it is 
typically only after patients are admitted into hospitals and 
are identified as having H5N1 that local officials would begin 
to investigate the patients' villages.
    But it is not just a technical question. The overall 
healthcare situation in China, I think, raises additional 
concerns. As reported from the Development Research Center of 
the State Council, a think tank directly under the Cabinet, 90 
percent of China's rural population is not covered by any form 
of medical insurance. The same report also notes that China's 
medical reform has been unsuccessful because it has become 
unbearably expensive to patients, and many dare not go to the 
hospital when they fall ill.
    Lack of medical insurance, together with ill-equipped 
countryside clinics and hospitals, makes rural China an 
extremely vulnerable spot when facing infectious disease 
outbreaks. In other words, cases may well go unreported simply 
because people do not choose to go to the doctor or to the 
hospital.
    Last, let me discuss a third area that I think is still a 
challenge, and that has to do with public awareness. As a 
result of poor educational conditions and the lack of available 
resources, especially in rural parts of China, public awareness 
and knowledge of a possible pandemic is limited, particularly 
in rural areas. This adds an enormous barrier to overcome in 
terms of avian flu education and prevention.
    Basic information about the symptoms, how it is contracted, 
and where the breeding grounds for H5N1 virus are, and other 
general information should be distributed more widely to the 
public, particularly the rural population, in order to 
implement preventive measures.
    The ``Beijing Declaration,'' which came out of the Pledging 
Conference last month, called for the mobilization--I thought, 
interestingly--of all social sectors, including non-government 
civil society, to effect a coordinated response and that 
community-based NGOs ought to be encouraged to partner with the 
government to promote public education and enhance public 
awareness, in particular in hard-to-reach populations and 
areas.
    The case of China HIV/AIDS-related NGOs may be instructive 
here. We have learned that such groups have tentatively begun 
to assist the government to reach out to socially marginalized 
groups and provide training, care, support, and preventative 
messaging. Thus, I think the role of NGOs and the fight against 
avian flu and other highly pathogenic and infectious diseases 
should be expanded in China as well.
    Let me conclude on the note that the possibilities for 
public/private cooperation on these questions, both on the U.S. 
side and in China, are increasingly open. The examples that we 
could point to, Ms. Elvander and I, of informal cooperation 
between public and private actors in trying to encourage more 
open and more responsive policies on the part of Beijing toward 
some of its infectious disease challenges, I think, are 
instructive.
    We see in China today an increasing openness and acceptance 

in the idea of partnering, even with foreign private entities, 
with the Chinese public sector to help tackle these kinds of 
infectious problems.
    Just generally speaking, I think it speaks to a greater 
openness and possibility for civil society and private actors 
to have a role in China in dealing with these kinds of 
problems. Thank you very much.
    [The prepared statement of Mr. Gill appears in the 
appendix.]
    Mr. Dorman. Dr. Gill, thank you very much.
    Witness testimony is very important to the Commission. At 
least since 2003, and perhaps before, our Commission Members 
have identified the issue of public health, in general, and 
specifically the Chinese Government's record in dealing with 
the international community in containing global health 
challenges, as an important part of the Commission mandate.
    Public forums such as this one are among the most important 
ways that the Commission receives information on these issues, 
so I thank all of you, on behalf of our Chairman and Co-
Chairman, for being here.
    I have seen my colleagues on the dais scratching down what 
must be hundreds of questions during your testimony, and I 
think most of the questions are going to focus on Chinese 
Government efforts to combat avian flu, and the degree of 
cooperation with both international and bilateral partners.
    But before we go in that direction, I would like to take my 
couple of minutes to expand the scope of our discussion by 
asking each of you to help the Commission understand the 
complexity and difficulty of the problem that China is facing.
    There have been news reports over the last couple of days 
mentioning that the Netherlands and France have received EC 
approval to begin vaccinating poultry stocks. All of these 
reports point to the fact that measures like these usually only 
occur in countries that face an avian flu problem that has 
become ``entrenched.'' The Netherlands and France are 
developing preventative responses before a problem develops or 
becomes ``entrenched,'' regardless of whether or not we might 
agree that this is the right response.
    China has been vaccinating poultry flocks and I believe it 
would be accurate to describe the avian flu problem there, 
unlike the Netherlands and France, as ``entrenched.'' What does 
it mean for a disease to be ``entrenched'' in a society, and 
second, how does it become ``entrenched? '' Has this 
``entrenchment'' resulted from a unique agricultural situation, 
a unique human situation, or do diseases like this become 
``entrenched'' because of the lack of a serious, early response 
by government actors, or is it a combination of all of the 
above?
    Mr. Clifford. I will go first. I think with regard to these 
types of diseases becoming entrenched in countries, it is 
probably initially either a lack of infrastructure or a lack of 
action to be able to appropriately address these diseases. I 
think that is basically summing it up.
    One of the things that we have encouraged, through the FAO 
and as well as the OIE, is basically an assessment tool to 
assess a number of these countries that have had this disease 
for some time and have been unable to eliminate, eradicate, and 
control this from their domestic poultry populations. I think 
it is important that we do an assessment to make sure that we 
provide the right kind of resources, training, and support that 
they need to be able to not only eradicate or control this 
disease in the short term, but also be able to sustain that and 
have the infrastructure to deal with these types of things in 
the future.
    Ms. Elvander. The other thing I would add is that we are 
talking about chickens. They have a short life span to begin 
with. What you are seeing, where H5N1 has occurred, is in 
countries which probably already have Newcastle's disease, fowl 
cholera, and other avian diseases. If a pig gets sick, a farmer 
is probably going to take better care of it, or if a cow gets 
sick, because there is a longer term investment. But you are 
dealing with chickens. Fifty percent of chickens, in some parts 
of this part of the world, die anyway and no one really knows 
why, and you can usually eat the ones that die for unknown 
reasons. So if you are talking about a backyard farmer 
situation, such as in Vietnam, where 90 to 95 percent of all 
chickens are in backyard farms, you are asking local farmers to 
not eat and/or kill off potential sources of protein because of 
unpredictable disease that in terms of total numbers--compared 
to other human diseases--has directly affected very few people.
    Further, the financial investment and the protein 
investment is very different than if you are dealing with a cow 
or some larger animal which is going to live longer and give 
you a different 
resource.
    The other thing I would point out is that the slaughtering 
practices in this part of the world are important to think 
about. Most Asian farmers or Asian consumers of chickens want 
to see their chicken slaughtered in front of them in a live 
bird market or they will slaughter it themselves. So, there is 
a certain sanitary/hygiene aspect of poultry slaughter going on 
here that is perhaps not as significant in the Western 
community. I do not know if you want to build on that or not.
    Mr. Clifford. I would agree. In the United States, our 
poultry operations on the commercial side, the majority of 
ours, are highly integrated operations with good biosecurity.
    It is a totally different situation than you see in many of 
these countries as far as the practices in which poultry are 
raised, as well as the incentive issues. We have incentives in 
the United States for reporting these types of diseases.
    Mr. Dorman. Dr. Gill, did you want to add anything?
    Mr. Gill. To answer your direct question, I think it is 
obviously a combination of both. It strikes me that while 
technical solutions to these problems, such as widespread 
vaccination or something similar, are often attractive, I am 
not sure, in the case of massive vaccinations, if something 
very massive had to occur. I am not sure that at this point 
there would be the technical resources or prompt enough access 
or delivery capability of that kind of a program to wide parts 
of China. So, I would fear that, while it might be an 
attractive, immediate answer, given the scale and the numbers 
that we are talking about, as well as the relative technical 
difficulties that we would face, especially in rural parts of 
China, that I do not think we can necessarily see that as a 
good answer.
    Mr. Dorman. Good. I think I would just paraphrase what I 
have heard from each of you. The Chinese Government is building 
a public health infrastructure to deal with diseases like avian 
flu, but it is building this capability after the fact. All of 
you have pointed to efforts by the Chinese Government to do 
this. But, of course, the challenge is very large.
    I am going to turn the dais over to my colleague, John 
Foarde, who serves as Staff Director for Representative Jim 
Leach, who is our Commission Co-Chair. John.
    Mr. Foarde. Thank you, Dave. Thanks to all three of our 
panelists. Two, Dr. Gill and Ms. Elvander, are friends that 
have helped us many times before. It is Dr. Clifford's first 
time, and I hope it will not be the last one.
    Mr. Clifford. Thank you.
    Mr. Foarde. We appreciate you sharing your expertise with 
us this afternoon. Dr. Clifford, you discussed during your 
presentation the request for regionalization that the Chinese 
Government made in 2004, and that raised the question, when you 
were discussing the lack of response to APHIS' request for 
information, about the reasons behind the Chinese Government's 
lack of response. I was trying to understand, in other words, 
what the problem is in China. All three of you have talked 
about capacity problems. I am wondering, what is your 
assessment of the capability for information gathering, 
particularly by, say, provincial and local health bureaus, or 
even the Ministry of Health itself? How good is it or does it 
need to improve? Is that the problem that prevents these sorts 
of requests from being responded to, or is it a political 
problem or a problem of some other sort?
    Mr. Clifford. Actually, others here may be able to answer 
that particular component better than I can. I know that we 
have not been able to get that type of information. Even our 
people in Beijing, when they have asked for that type of 
information, it is not provided to them. So, I do not know if 
it is a case of a lack of capacity or if it is a case where it 
has just not been provided.
    Mr. Foarde. Does anybody else want to comment?
    Mr. Gill. In this particular case of monitoring for avian 
flu, I do not have any direct or personal experience or 
information. If it is fair to base an answer on experience, 
looking at the way these sorts of surveillance mechanisms are 
employed and utilized in other infectious diseases, I think we 
have a problem because I do not think necessarily that it is 
conscious obfuscation, or an effort to try to lie, or 
misinform. It may be more likely simply a problem of having 
good information at the central level of what is going on at 
more localized levels. There is reporting going on, but the 
question has to arise: is that reporting good?
    It strikes me that the incentives at the local level to be 
less open are greater and the technical capacity to accurately 
gather and collate and process, analyze, and put forward data 
is also weaker.
    So if we are seeking information at a central level, I 
think they will probably do the best they can or they will just 
say they do not know. That may well be the case.
    Mr. Foarde. That is useful. Thank you. Erika, I have a 
minute to ask one more thing. I was very intrigued by the 
``Code Orange'' in Hong Kong comments that you made. I just 
wondered, are there any other avian diseases, such as 
Newcastle, avian cholera, or other things that Hong Kong is 
``Code Orange'' or above for at the moment?
    Ms. Elvander. I used that sort of as a metaphor based on 
our own homeland security system. I do not know. In direct 
answer to your question, I do not know. But I know that Hong 
Kong has the political will to do this, and NIH is funding a 
lot of what they are doing on the borders. Everyone has heard 
of Dr. Rob Webster in the news out of St. Jude's. He spends 
three months of his year at Hong Kong University doing this 
sort of research.
    Do you know if they do the same?
    Mr. Clifford. Actually, Hong Kong has a lot more 
progressive program. As stated, they took action immediately. 
In fact, with regard to avian influenza, at first we had placed 
Hong Kong on the initial list. Hong Kong came to us with the 
data and support that we needed to be able to remove them from 
that list, assuring us that they no longer had the H5N1 Asian 
strain in their domestic poultry population, and in fact it 
never got into the poultry population. I think it was a 
particular wild bird, or an eagle, or something. I cannot 
remember.
    Ms. Elvander. It was an egret and a Peregrine falcon.
    Mr. Clifford. Egret. Yes. There you go. Thank you very 
much. They had found it had H5N1 in subsequent cases.
    Mr. Foarde. Thanks very much.
    Mr. Dorman. Good. Next, I would like to turn the 
questioning over to Will Leahy, who is a Research Associate 
with the Commission. Of course, as our witnesses know, Will did 
all the difficult work that helped put this roundtable together 
today. So, thanks for that, Will.
    Mr. Leahy. I just want to thank all three of you for being 
here. It has really been very helpful.
    My question builds on the one that John Foarde asked. 
Recently, the WTO's top pandemic flu official described Hong 
Kong's practices as the gold standard in flu prevention. Ms. 
Elvander, you said that clearly Hong Kong is a unique 
situation, but I was wondering what best practices you think 
could be taken from Hong Kong and realistically applied to the 
mainland. If that is something that all of you feel comfortable 
commenting on, that would be great.
    Ms. Elvander. I am going to turn to my Agriculture 
Department colleague for this response.
    Mr. Clifford. When you are talking about best practices, I 
think, you are talking about good biosecurity practices, you 
are talking about good surveillance activities, you are talking 
about incentives for producers to be able to submit sick birds. 
But on the human health side, you mentioned issues about the 
way animals are slaughtered and good hygiene practices. So, all 
of those things are critically important to this issue.
    There is a long list of things that can be done, but again, 
I think that requires a tremendous amount of training and 
capacity to get in there and train and to develop that 
infrastructure and capacity to be able to do those things and 
sustain them.
    Ms. Elvander. From a human health side, I would also say 
that one of the great things that you find out about surveying 
and getting good data on human cases of avian flu is that you 
find all the other influenza-like illnesses that can start 
tracking your seasonal flu.
    This is one of the things that we have learned from our 
activities with our partners in Bangkok, with whom HHS has had 
a partnership for over 25 years in the Ministry of Public 
Health--they actually now know when their seasonal flu happens 
and they can 
predict and plan for that sort of thing, which, from an 
economic standpoint, means you can plan for when you are going 
to have worker shortages. Then you an also start to be 
predictive for your pandemic flu. Hong Kong has the political 
will and the financial will to do those things as well.
    Mr. Dorman. Next, I would pass the microphone to Carl 
Minzner, who is a Senior Counsel on the Commission. Carl.
    Mr. Minzner. Thanks to all three panelists for coming here 
to talk to us today.
    On Wednesday, the Chinese central authorities in the Party 
and the State Council released ``their number-one document'' 
setting out some of their leadership priorities for the coming 
year. It has a strong focus on rural reform. Two issues in 
particular that they flagged are larger investment in rural 
healthcare, particularly over the next two years, and the 
development of rural health clinics.
    Assuming Chinese authorities pursue reform of the 
healthcare system, what specific suggestions might you have for 
things they might include in the development of relevant 
projects for the purpose of warding off an avian flu pandemic?
    Ms. Elvander. I will try to answer that question. I think 
Bates and I have known for a long time that the biggest 
domestic priority for health in China right now is their rural 
healthcare. Minister Gao said as much to Secretary Leavitt in 
October when they visited together; he said it again in several 
forums. There have been a number of white papers from China.
    It is very clear to everyone that China has a healthcare 
delivery problem, and that public health, primary care 
delivery, ensuring preventive healthcare, like immunizations, 
things like that, are all things that are going to be important 
to any rural healthcare 
reform.
    I am not by any means a health economist, so I am not going 
to pretend to address those kinds of issues. I will say that 
HHS and the Department of Commerce have had a joint activity 
with the Chinese on healthcare and healthcare delivery with 
their Ministry of Commerce and Ministry of Health. They had a 
two-day forum in July and that began a process for us to 
interact with them.
    There was one other thing that I was going to say and it 
slipped out of my head. Oh, yes: one piece of evidence to show 
that China really has to invest in preventive healthcare is the 
data that we have in the Western community demonstrating that 
folic acid supplementation alone in the first trimester of 
pregnancy dramatically lowers the risk of neural tube defects. 
This data comes from China, but it is not being used there. It 
comes from a long-term HHS-Ministry of Health study of many 
women in Northern China, demonstrating that folic acid lowers 
rates of neural tube defects by some number that I cannot 
remember off the top of my head. But that data is not being 
used in China, and I think that demonstrates the need for them 
to commit to preventive healthcare.
    Mr. Gill. Carl, it is going to be really interesting to see 
how this new, or renewed, attention to the plight of Chinese 
peasants is going to play out. We can hope it will play out in 
a positive direction, but there are big challenges. If we just 
narrow the focus enough to look at just dealing with infectious 
diseases in the local areas, I guess there would be, I think, 
two areas in which one would have to focus.
    One, obviously, is on the technical and the capacity 
building side. At the village level, persons at the village 
level who are known as ``doctors'' are really lucky to have 
completed high school. They might have received some basic 
training in first aid and are able to dispense drugs and 
diagnose some simple ailments. So, obviously, if we are worried 
about these sorts of things emerging at that level, some sort 
of technical and educational capacity is going to have to be 
built there.
    On the other side, though, I think--and I have tried to 
make a point of this in the testimony--is how the economics of 
healthcare in China are structured. I am not a health economist 
either, but one thing that is going to have to be done is to 
build incentives into the remuneration structure of physicians 
and other healthcare workers so that they would be more prone, 
willing, eager, and able to be more proactive in a preventative 
way and not simply wait for the patient to show up and give 
them money, if that is a possibility. The other side of this 
coin is the health insurance problem. It has gotten so bad, the 
market has become so expensive for the delivery of healthcare--
and this is not just true in China, but in many parts of the 
world, including our own--you do not do anything until you are 
sick because you cannot afford to see a doctor.
    As we know in our country, that is not an optimal 
situation, 
especially when you are talking about infectious diseases. I am 
encouraged to see that the government recognizes the problem 
and appears prepared to devote political and financial 
resources to it, but I think, as outside observers, that this 
is going to take a long time to restructure.
    Ms. Elvander. One thing I would note is that the World Bank 
is aware of this issue. I think you will be finding some 
interesting data and strategic planning coming out of the World 
Bank in the coming months about this problem.
    Mr. Dorman. Good. Thank you very much.
    I would like to turn the questioning over next to William 
Farris, who is a Senior Counsel on the Commission. William.
    Mr. Farris. Thank you.
    Some of you have touched on the issue of local and 
provincial officials concealing information, possibly for 
economic reasons. I would like to ask a question related to 
that. The Chinese Government prevents people from publishing 
newspapers and magazines and practicing journalism; unless they 
have been licensed by the government, it is illegal. I would be 
interested in getting your assessments of the Chinese 
Government's contention that one of the reasons that this 
licensing is necessary is a fear of people spreading false news 
about issues similar to this one. I want to also get your ideas 
or thoughts on how you think a free and open system for foreign 
press--Reuter, AP, wire service stringers--being able freely to 
go into China and report and cover these issues might enable 
the international community to have a better capacity to 
monitor the potential spread of this disease in China. Thank 
you.
    Mr. Gill. I will take that little hot potato. [Laughter.] I 
think all governments have a right to be concerned about the 
spread of false information. I mean, that concern is not unique 
to the Chinese Government. So, we have to be somewhat 
sympathetic to that concern. I think they probably do overplay 
it in a way so that they can better control, or have 
justification to better control, what kind of information the 
public is hearing and seeing. It is unfortunate, I think, that 
there is not a greater degree of independence among 
journalists, whether they are from China or from abroad, so 
that not only this sort of social health problem could be more 
readily recognized and dealt with, but other problems beyond 
the healthcare issues could also be addressed, and to introduce 
a greater degree of accountability or oversight, a watchdog 
function that the press can often play.
    I think, though, that we should not expect that this sort 
of control on the press in China is going to change any time 
soon, especially with regard to foreign journalists. We have to 
accept there has been a remarkable opening as compared to 10 or 
even 20 years ago and marvel at the degree to which foreign 
journalists can, and do, manage to get around the country and 
report quite remarkable stories about what is going on at local 
levels in China. That has happened, but obviously issues of 
such sensitivity as the effectiveness of local officials, or 
even the malfeasance of local officials, is something that, for 
the foreseeable future, the Chinese are going to be very 
reluctant to allow a lot of reporting on. So I take your point. 
I think it would be a big help, both for Chinese journalists 
and foreign journalists. I just think that we should not have 
overly high expectations that that is going to be able to 
happen anytime soon.
    Mr. Dorman. Good. Thank you.
    Next, I would like to turn the questioning over to Pamela 
Phan, who is a Counsel on Commission staff. Pamela.
    Ms. Phan. I just wanted to echo our thanks to the panelists 
for coming and sharing your expertise with us here today.
    I have questions regarding the risks of smuggling. I am 
hoping that the panelists can help us better understand the use 
and effectiveness of not only preventive, but also punitive, 
measures.
    With respect to preventive measures, aside from 
compensation, are you aware of any other specific incentive 
schemes that have been discussed or may be available, which 
would involve participation by the public--particularly the 
poultry farmers whose livelihoods are affected by the culling 
of chickens?
    With respect to punitive measures, I am wondering if you 
could provide your assessment of any punitive measures that 
might exist, such as criminal sanctions or criminal punishment 
of those who smuggle or might be related to smuggling issues.
    Mr. Clifford. A point of clarification. Is your question 
related to China specifically, or even within the United 
States?
    Ms. Phan. Both.
    Mr. Clifford. I can speak to what we do in the United 
States. We actually have within the United States, besides the 
Department of Homeland Security's Customs and Border Protection 
component that would look for and be involved with smuggled 
products at our ports of entry, within APHIS and plant 
protection and quarantine, we have smuggling and interdiction 
teams that actually are trained full-time in looking for 
smuggled products. I cannot quantify it for you today, but 
basically they have been very effective in being able to find 
and confiscate smuggled products that have come into the United 
States. In fact, $7.5 million of the President's supplemental 
request is to bolster and enhance that effort by APHIS in that 
area.
    We also have penalties in place that we bring against 
smugglers that are part of both the Animal Health Protection 
Act, as well as the Plant Protection Act. Those penalties can 
be substantial, depending upon the case.
    Mr. Gill. I might just say a couple of words. It is my 
understanding that there are regulations on the books in China, 
at least issued at the central level, that farmers need to be 
compensated for their animals, or chickens or other poultry, 
that are culled. But it is also my understanding that there is 
a sort of caveat within the regulations that says ``depending 
on local conditions,'' in other words, basically leaving it to 
local officials and local financial resources to make a 
determination about what level of compensation is going to be 
adequate and necessary to the farmers. So, it clearly leaves a 
wide-open scope for malfeasance or just simple non-payment, 
whether that is through some sort of corrupt practice in which 
the official ends up pocketing that allocation, or it could 
also be that there just simply is not the money to do it at 
local levels. So I think the situation is ripe for abuse or 
ineffectiveness.
    On the punitive side, I am not aware of there being any 
national law which specifically addresses the question of avian 
flu-related criminal activity. There are other laws, however, 
that relate more broadly to knowingly spreading infectious 
disease and other, I think, more broadly interpreted 
regulations under which someone could probably be punished.
    But it gets down to what it is that the local level wishes 
to do. You can bet that there is a law that could be applied to 
a farmer if somebody locally wanted to have that law applied, 
and then that farmer would have little recourse.
    What this really boils down to, both on the incentive and 
the punitive side, is the unpredictability of the Chinese legal 
system and the lack of the rule of law, which, in a certain 
case, could actually exacerbate this problem because the farmer 
(A) cannot be guaranteed that he is going to be incentivized 
correctly; and (B) he is also uncertain of just how badly he 
might get punished if he does something wrong. Both of those, I 
think, could be recipes for suppressing information, hiding, 
putting things under wraps, trying to avoid reporting a problem 
if you might have one.
    Mr. Dorman. Good. Thank you.
    A question for Dr. Clifford. Two-part. Is China a member of 
the OIE? If so, what sort of obligation or expectation is there 
that the Chinese Government would allow independent 
verification of disease reports?
    Mr. Clifford. Actually, I do not think China is a formal 
member of the OIE. I am not sure how to describe China's 
standing with the OIE, so there are some issues there, but it 
is my understanding that they are part of the WTO. Therefore, 
commitments under the WTO would require them to base trade 
decisions and particularly restrictions upon good science, and 
the World Organization for Animal Health, the OIE, sets those 
standards for animal health-
related issues.
    Mr. Dorman. Good. Thank you.
    Ms. Elvander talked about Premier Wen Jiabao's statement, I 
think, at the January 2006 Donors Conference, where he pledged 
China's cooperation with international efforts to combat avian 
flu.
    I would like to ask the panel, how significant do you judge 
this statement to be? We have seen in the past where a 
statement from China's most senior leadership on an issue like 
this would have a strong impact on implementation and 
cooperation at both the central and local levels.
    Is that the first statement from China's most senior 
leadership on this particular problem? If so, how should we 
judge that statement?
    Ms. Elvander. This is the first such statement that I am 
aware of, although when Secretary Leavitt and Minister Gao met 
in October, Minister Gao admitted to openness around human 
cases. I think the key piece of Premier Wen Jiabao's statement, 
though--it is interesting--is that he announced that the 
Chinese Government would contribute $10 million and reaffirmed 
that the government would release the genetic sequences of 
influenza and viral strains. He did not say, however, that 
Chinese authorities would actually share virus isolates and 
samples, which I think is a key piece here.
    We have seen that the Ministry of Health wants to 
collaborate with WHO and has been quietly doing so, but we have 
also seen that the Ministry of Agriculture has not. So, the 
commitment to transparency was couched in those terms. 
Nevertheless, I think that with the commitments we have seen 
with other diseases, such as with HIV and with SARS, et cetera, 
that a commitment on such a high level does permit leadership 
both on the central level, and then flowing down to the 
provincial and local level, to at least start going through the 
motions of being engaged.
    The other piece of this is that this is not just a human 
health disease, it is a multiple-ministry disease. As Dr. Gill 
has noted, the Chinese Government's decisionmaking system is 
stovepiped. So until Premier Wen says ``thou shalt collaborate 
with your colleagues in the Public Security Bureau, the 
Ministry of Agriculture, and other ministries. . .'' it is 
probably not going to happen. So, I do think that is a positive 
sign. I do not know if others want to comment.
    Mr. Gill. I agree. I think you are aware of the 
difficulties across the bureaucracy for coordination in China, 
although I think we have seen a lot of interesting steps taken 
at the central level to try to improve that and to establish 
more of what we might call an inter-agency process. I note in 
the testimony, for example, that apparently in November 2005, a 
kind of cross-bureaucratic office for avian flu prevention was 
created, which is intended to bring together six different 
agencies concerned with the various issues, food security, 
animal health, and medical prevention science. At least on the 
books, we are seeing a level of cooperation. It does take 
something like a statement from Wen Jiabao to get people to act 
a little bit more forcefully on these fronts, but I think it is 
still too early to tell what the result will be.
    But, to the degree that our government could do it, it 
would not be a bad idea to seek some sort of cross-bureaucratic 
exchange, which would force mobilization of that kind of inter-
agency process in China.
    Mr. Dorman. There is a rather remarkable article in the 
Wall Street Journal today. I am not sure if you have seen it, 
but it moves the discussion away from a simple lack of 
transparency or coordination, and instead points directly at 
the chief veterinarian in the Chinese Ministry of Agriculture 
as the source of the decision, and further describes concerns 
by Chinese scientists over attribution as a key reason disease 
samples are not being shared.
    Apparently, in the past some research generated by Chinese 
scientists was used in articles outside the country, but was 
not properly attributed, and this has led to the current block.
    The article very carefully points out that China is not 
alone in this sort of phenomena, and describes a similar 
situation that occurred in the United States.
    That was the lead-in to this question: is there a 
scientific reason that China would not be sharing information 
regarding scientific samples on diseased poultry?
    Mr. Clifford. Not from the animal health side that I would 
know of.
    Ms. Elvander. There is a degree of face. I mean, we saw, 
with Vietnam, their neighbor to the south, a rather critical 
article in Nature come out right before the World Health 
Organization meetings last year, and Vietnam felt very much 
affronted by what they perceived as untoward criticism. It took 
a lot of ground work by staff in Hanoi with the World Health 
Organization and other donors to regain the momentum that we 
had in collaboration with the Vietnamese on this particular 
issue, to get that going again. China wants to be an 
international partner, so does Vietnam, so there is a degree of 
face involved. But as far as for scientific reasons, there is 
absolutely no reason not to share.
    Mr. Dorman. Good. Thank you.
    I will turn the microphone over to John Foarde for another 
question.
    Mr. Foarde. Thank you, Dave.
    One of the sets of issues that we are really interested in 
understanding better on the Commission staff is differences 
between 
regions in China and the way laws, regulations, policies are 
formulated and implemented, and even differences within 
provinces and localities.
    So, Erika, you made a comment, I think, about the source of 
live poultry for Hong Kong being--and correct me if I 
misinterpreted--Guangdong province, which is right next door, 
and then Shandong province in the northeast. Right?
    Ms. Elvander. Yes.
    Mr. Foarde. That raised in my mind the question whether or 
not you are seeing any differences between the two provincial 
governments and how they handle either the animal or the human 
disease prevention and control efforts with respect to these 
exports?
    Ms. Elvander. Go ahead.
    Mr. Clifford. I was just going to say, I would not be able 
to 
respond to that at this time.
    Ms. Elvander. And I cannot really answer about the animal 
health aspect, and I cannot really address Shandong province. I 
will say that, after SARS, Hong Kong felt very much like, 
``here we are at the edge of it, and it all happened in 
Guangzhou.''
    So they have been able at least to establish conversations 
with the Guangzhou Department of Health that do not have to get 
vetted by Beijing, and I think that was very important for them 
from a human health perspective. I cannot answer the rest of 
your question.
    Mr. Foarde. I appreciate your trying anyway.
    Ms. Elvander. All right.
    Mr. Clifford. We will see if we can find out some more 
information for you.
    Ms. Elvander. Yes.
    Mr. Foarde. I wonder if this is something that your folks 
at the U.S. Embassy in Beijing even have time to track.
    Mr. Clifford. We will see what we can do.
    Mr. Foarde. It is something that, when I was assigned to 
the U.S. Embassy in Beijing, we were always trying to figure 
out in another context and did not do as well as we would have 
liked.
    Bates, you were talking in your presentation about 
challenges ahead, and one of them, of course, is lack of public 
awareness, especially in rural areas. One of the things we are 
interested in is the whole question of the Internet and the use 
of the Internet for just this type of public purpose.
    Here in the United States, really from the beginning of the 
time that we had Internet access, you had Web MD and all kinds 
of other public health Web sites, some of them of very high 
quality and some of them not so high quality. Do you think that 
the Internet or Web resources could have an impact on the 
availability of information in rural areas for rural people in 
China, and is that an area that the government could invest in 
productively?
    Mr. Gill. I think the answer, obviously, is yes. I would 
assume that there are similar resources already available in 
China. I do not know for a fact, but I am assuming they would 
be. Surely, if not mainland generated, then mainland-based 
individuals could surely access useful information from other 
places, such as Hong Kong, Singapore, and elsewhere. The 
problem, obviously, is that this most recent estimate that 
there are 111 million Internet users in China today, which is a 
fantastic number given where it was even five years ago, that 
is still less than 10 percent of the country's population. 
Obviously, it is predominantly concentrated in the wealthier 
eastern coastal region.
    So if an Internet network answer were to be feasible, it 
would require, I would assume, infrastructure of all kinds. I 
suspect that we will see China leapfrog once again, and perhaps 
down the road as part of this effort to modernize, what are 
they calling it? ``Countryside socialism,'' or something like 
that. We may well see yet 
another leapfrog, where this kind of information would not 
necessarily have to be channeled out to the remote parts of 
China through fiber, but would rather be done wirelessly, and 
just leapfrog over the whole land line idea entirely. That is 
within reach.
    I suspect, if that becomes a greater reality, that we will 
see more and more of that in the Chinese countryside.
    Mr. Dorman. We have time for, I think, two more short 
questions, so I will give one to Carl Minzner to ask.
    Mr. Minzner. Dr. Gill, you flagged the possibility of 
cooperation between Chinese and U.S. civil society 
organizations as a positive development. Dr. Clifford and Ms. 
Elvander, you flagged inter-
governmental cooperation as a positive step. What restrictions 
or problems currently exist on that cooperation, and what 
usefully could be done to address this? You mentioned 
particularly that there was some information that you had 
difficulty getting directly out of your counterparts in 
Beijing. What usefully could be done to advance cooperation 
between relevant organizations?
    Mr. Clifford. I think that some of that cooperation is 
happening through the Memorandum of Understanding we talked 
about, the agreement we have over the next five years. We are 
talking about more technical level discussions. Also, we have 
got, through our Foreign Agriculture Service within USDA, there 
is actually a group of Chinese officials, about 15 to 20, who 
are going to be visiting the United States soon, and we are 
going to be taking them through how we do risk assessments, how 
we handle SPS issues, and just give them a flavor and 
background of how we handle rulemaking and things like that, to 
try to have a better collaboration and understanding of the 
different approaches and systems. So, I think we are doing 
that.
    Ms. Elvander. I would echo my colleague from Agriculture's 
comments. As I said, last year the HHS funded $34 million worth 
of activity within China. Now, most of that was through NIH 
grants, and 90 percent of NIH grants go to academic 
institutions. They are ``extramural,'' which means that grant 
funds go to Harvard, UCLA, but also some directly to the 
Chinese, and, I think, building that staff level partnership.
    We also signed this Memorandum of Understanding in October 
that is going to expand the number of people we can place in 
China, and I think the trust issues will build from there. We 
will be able to demonstrate that we view them as partners, 
technically and scientifically, but provide that technical 
assistance. I think it is a case of trust in that particular 
case.
    Mr. Gill. As you probably are well aware, there is an 
enormous amount of activity being undertaken by private 
entities, philanthropic organizations, charities, faith-based 
organizations, foundations, and even think tanks over in China, 
and doing it, I would say, predominantly on what we might call 
a private/public basis, that is to say, private foreign 
organizations that are working, at least at the initial phase, 
with government-related entities, and even directly with 
bureaucracies.
    So I think the model is clearly there, and I think on the 
issue of health in particular, it has been flagged as an area, 
I believe, where the Chinese are prepared to expand that kind 
of activity, even well beyond our relationship with strictly 
government entities, but I think there is even an opening to 
improve more private-to-private or NGO-to-NGO type activity. 
So, I think there are some promising ways forward there.
    Mr. Dorman. Well, unfortunately our time is up. I actually 
have to apologize to our witnesses because we have kept you a 
few minutes longer than we promised already. I would also like 
to thank all of you again for sharing your knowledge, insights, 
and expertise.
    This topic is important to our Commissioners, and each of 
you has done a superb job in illuminating the issue, and 
providing ideas to improve cooperation and efforts in this 
particular area.
    Before I call the roundtable to a close, I would like to 
remind everybody in the audience again that the next public 
event by the Commission will occur on March 6. It will be a 
full Commission hearing, chaired by Senator Hagel, that will 
look at the issue of human trafficking in China. It will be 
held in the Dirksen Senate Office Building, Room 419, 2 to 3:30 
p.m.
    So with that, on behalf of our Chairman and Co-Chairman, I 
call this roundtable to a close. Thank you very much.
    [Whereupon, at 3:37 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of John R. Clifford

                           FEBRUARY 24, 2006

    Thank you very much for asking me to take part in this roundtable 
discussion. My name is Dr. John Clifford, and I am the Deputy 
Administrator for Veterinary Services with the Department of 
Agriculture's Animal and Plant Health Inspection Service, or APHIS. In 
this position, I also serve as USDA's Chief Veterinary Officer.
    We in the Federal Government take the threat posed by avian 
influenza very seriously, and we're committed to working to carry out 
the President's National Strategy for Pandemic Influenza.
    USDA has many key roles to play as outlined in the National 
Strategy. In my mind, though, one of the most important is our 
involvement overseas to help 
affected countries take steps to combat the Asian H5N1 highly 
pathogenic avian influenza virus at its source--in poultry populations.
    Representatives attending last month's International Ministerial 
Pledging Conference on Avian and Human Pandemic Influenza in Beijing, 
China, also recognize the importance of a coordinated global effort to 
address this disease. According to the European Commission, cosponsor 
of the conference along with the World Bank and the Chinese government, 
a total of $1.9 billion was pledged by the attending countries. This 
funding will help affected countries fight outbreaks of the Asian H5N1 
avian influenza virus and also assist neighboring countries in efforts 
to prepare for any related human health issues.
    During the conference, President Bush announced that the United 
States will provide substantial funding--$334 million--to support the 
global campaign against avian influenza. This represents the largest 
single national contribution thus far to these global efforts. 
Resources will be used, among other things, to assist countries with 
national preparedness plans, improve surveillance and response systems 
for domestic poultry, and to provide assistance in establishing wild 
bird surveillance programs.
    As part of this funding I just mentioned, USDA received $18 million 
to advance collaboration with international organizations to help 
countries in southeast Asia take steps to enhance their veterinary 
infrastructure and adopt other practical, 
effective programs against Asian H5N1.
    My boss, APHIS Administrator Dr. Ron DeHaven, has traveled recently 
to Southeast Asia to assess the animal disease situation in several 
countries and the steps being taken in response. The information and 
observations he collected are helping USDA develop its plan to work 
with international organizations, primarily the United Nations' Food 
and Agriculture Organization, to deliver the best possible technical 
assistance to these countries. By effectively combating this disease in 
birds, I am confident that we can help lower the virus load in 
countries and prevent spread to humans, thereby reducing the likelihood 
that this particular highly pathogenic avian influenza will mutate into 
a virus capable of spreading not only from birds to humans, but then 
from person to person.
    Before I speak more about our international efforts, including 
those related to China, I'd just like to say a few words about the 
steps we're taking domestically to protect against the introduction of 
the Asian H5N1 avian influenza virus into the U.S. poultry population. 
These programs--many of them longstanding--are every bit as critical as 
the efforts we're undertaking overseas to help protect the United 
States.
    USDA is keeping potentially infected poultry and poultry products 
from countries affected by the Asian H5N1 virus out of the United 
States through import restrictions. We quarantine and test all live 
birds imported into the United States to ensure that they are disease-
free. We carry out an aggressive surveillance program that looks for 
any signs of illness in the commercial U.S. poultry flock. We're also 
on the lookout for smuggled birds or products from overseas that could 
harbor the disease.
    USDA also maintains a stockpile of avian influenza vaccine should 
the need arise to vaccinate commercial poultry as part of a virus 
control and eradication effort. And, we are making sure that our State-
level response plans in the event of a disease detection are constantly 
updated and take into account all the steps necessary to address the 
situation.
    In total, the funding I mentioned a moment ago also directs $73 
million to USDA to enhance these and our other domestic avian influenza 
related efforts.

                H5N1 AVIAN INFLUENZA IN CHINA: TIMELINE

    I think the best way to frame our discussion of avian influenza in 
China is to trace significant developments in chronological fashion. 
I'll then be happy to answer your more specific questions.
    Evidence seems to suggest that the Asian H5N1 avian influenza virus 
emerged in southern China and Hong Kong in 1997. We know, too, that the 
virus did not start causing mortality in large numbers of birds in 
China until late 2003. In response to the escalating animal health 
situation, in January, 2004, APHIS and the U.S. Centers for Disease 
Control and Prevention issued emergency import restrictions on poultry 
and poultry products from China and seven other countries in east and 
southeast Asia.
    It's important to note here, however, that APHIS has had 
longstanding prohibitions in place on live poultry and poultry products 
from China (as well as most other Asian countries) due to the 
widespread presence of exotic Newcastle disease, another significant 
poultry disease, in that region of the world. So no significant 
quantities of live poultry or poultry products from China or other 
countries in southeast Asia were being imported into the United States. 
Again, though, in 2004 we felt it a prudent step to issue the emergency 
import restrictions due to the threat the Asian H5N1 virus poses to 
animal health, as well as concerns by public health officials that the 
virus could potentially have human health implications.
    Later in 2004, APHIS placed restrictions on imports from all 
countries reporting detections of the Asian H5N1 avian influenza virus 
in poultry. These further restrictions prohibit the importation of all 
live birds, including those previously allowed entry provided that the 
birds went through a lengthy post-entry quarantine period; all feathers 
and feather products, including those treated overseas or imported into 
the United States for treatment; and processed or rendered poultry 
products for human use or consumption.
    In the summer of 2004, China requested that APHIS consider 
regionalizing the country to enable the trade of poultry and poultry 
products from areas of the country unaffected the Asian H5N1 virus. 
Regionalization is a tenet under the World Trade Organization's 
Sanitary and Phytosanitary (SPS) standards agreement. APHIS considers 
all such requests, and, in order to do so, we requested on several 
different occasions that China provide us with information on the 
disease situation in the country and steps being taken in response.
    China, to date, has not provided us with this information; 
therefore, APHIS has been unable to begin considering the 
regionalization request. I'd also add that while China has reported 
cases of the disease to the International Animal Health Organization 
(OIE), there has been no independent verification of those reported 
detections by agencies outside of China. We commend China for reporting 
detections to the OIE, but we also feel that officials need to be much 
more transparent and forthcoming with information on surveillance 
testing, disease control and eradication measures, and related 
information.
    Along these same lines, I'd like to acknowledge China's lifting of 
its import ban on all U.S. poultry and poultry products, put in place 
following the detection of a high pathogenic avian influenza virus in a 
flock of 6,600 birds in Texas in February, 2004. That detection was 
quickly contained and eradicated without any further spread to poultry, 
or any human health implications. It is a testament to the excellent 
surveillance and emergency response plans we have in place for serious 
poultry diseases here in the United States. APHIS provided China with 
information on the detection and related issues in August, 2004. 
Chinese officials removed the ban in October, 2004, and U.S. product 
began moving to the country again in January, 2005.

                               NEXT STEPS

    As I said at the outset of my remarks, USDA believes that a 
coordinated effort to address Asian H5N1 avian influenza in poultry 
populations in affected countries is among the most important steps 
that can be taken to prevent against a pandemic situation. In support 
of this, APHIS and USDA officials have certainly been keeping an active 
international travel schedule. In July 2005 we attended the symposium 
on international animal health standards for the member economies of 
the Asia-
Pacific Economic Cooperation group, as well as the October 2005 meeting 
of senior officials from the International Partnership on Avian and 
Pandemic Influenza, a group of key nations and international 
organizations launched by the United States in September 2005. In 
addition, USDA participated in a November 2005 meeting on avian 
influenza and human pandemic influenza organized by the OIE, the World 
Health Organization, the FAO, and the World Bank. We were also a part 
of the WHO's December, 2005, meeting to develop an international 
unified strategy to control the Asian H5N1 virus in birds.
    In regard to China, APHIS and USDA officials met with their 
counterparts in Beijing in November, 2005, as part of a poultry health 
symposium. Much discussion took place on issues such as regulatory 
measures, disease surveillance, and international animal health 
requirements for the disease. This meeting was followed by the WTO 
Ministerial meeting in Hong Kong in December, 2005. During the meeting, 
an annex was approved to the Memorandum of Understanding in place 
between USDA and China's ministry of agriculture. The annex details the 
formulation of working groups that will meet on a regular basis to 
discuss technical animal and plant health issues. We are currently 
working to arrange the first meeting of the animal health working group 
and our goal is to engage in a sustained dialogue with our Chinese 
counterparts on many important issues, chief among them domestic 
surveillance in China for Asian H5N1 avian influenza.
    It is our strong desire that this type of regular communication 
with Chinese officials will help encourage further transparency on the 
animal disease front. It is our hope, too, that China will engage more 
fully in the international efforts to formulate effective strategies 
against the Asian H5N1 avian influenza virus.
    With that, I'll conclude my statement. Thank you again for the 
opportunity to be here today. I look forward to your questions.
                                 ______
                                 

                  Prepared Statement of Erika Elvander

                           FEBRUARY 24, 2006

    In December 2003, the global community learned of reports from 
Korea of its first ever cases of Avian Influenza (A) H5N1. Shortly 
after this, H5N1 appeared among poultry in a number of countries in 
East Asia, including Thailand, Vietnam, and China. Since then, H5N1 has 
spread to Central Asia, Europe, and the Middle East. As we know, in 
recent weeks Nigeria reported the deaths in its northern provinces over 
40,000 birds from H5N1, bringing the disease to Africa. In addition to 
these avian cases, human cases are appearing sporadically across the 
globe. As of February 20, 2006, the World Health Organization (WHO) 
confirmed 170 human cases, of which 92 have been fatal. In all but a 
very few cases, all confirmed human cases could be linked to contact 
with sick poultry or animals.
    While 92 human deaths may not be considered significant in the 
context of other diseases such as tuberculosis and HIV/AIDS, the high 
rates of mortality, the lack of predictability about who could contract 
the disease, and fears of genetic changes within the virus that could 
create an environment for efficient human-to-human transmission, cause 
great concern about human cases of H5N1. Globally, the emergence of a 
new strain of influenza with pandemic potential has public health 
officials extremely concerned. Thus multi-lateral organizations such 
the WHO, the World Organization for Animal Health (OIE), and the Food 
and Agriculture Organization of the United Nations (FAO), as well as 
larger donor governments such as the United States, Japan, and the 
European Union, have begun to apply political pressure and provide 
financial and technical assistance to help countries around the world 
affected by the animal disease epidemic in hopes of stemming a possible 
human pandemic.
    Influenza (A) H5N1 is one of many strains of influenza or flu, of 
which only some affect humans, or birds, or both and some that affect 
other species such as pigs and cats. Not all strains are highly 
infectious or cause high rates of morbidity and / or mortality. The 
fact that influenzas change and mutate is why specialists carefully 
watch flu strain patterns every year to predict which strains will be 
responsible for the regular, seasonal human flu which causes about 
36,000 deaths in the United States a year.
    Beyond seasonal flu, H5N1 specifically, is of concern for a couple 
of reasons. First, flu pandemics tend to come in cycles of thirty to 
fifty years. The ``Spanish'' flu pandemic of 1918 is thought to have 
caused between 20 and 100 million deaths worldwide, and more than 
500,000 deaths in the United States. While subsequent pandemics have 
been less deadly (the last true flu pandemic occurred in 1968 and 
caused 1 million deaths across the globe), the specter of the 1918 
pandemic lingers on. Second, the H5N1 strain in circulation among 
animals seems to cause extremely high rates of mortality when it 
infects humans. Third, while vaccines specific for H5N1 are in 
development, they are still being tested and if proven to be effective, 
will take time to manufacture and distribute. In the interim, other 
drugs, such as amantadine and oseltamivir (Tamiflu) are in limited 
supply and are of limited use.
    While it is clear that direct exposure to diseased birds seems to 
be a necessary link in humans contracting disease, other information 
about how, when and why H5N1 causes disease in its victims is still a 
mystery. The ability of flu viruses to mutate quickly causes public 
health officials to be on the lookout for sustained human-to-human 
transmission. This makes health ministers lose sleep at night and their 
agriculture counterparts toss and turn worrying about the drop in trade 
that the die-offs in poultry are causing.
    H5N1 has appeared before. It first appeared in Hong Kong live bird 
markets in 1997. Appearing to only affect chickens at first, public 
health officials became worried when six people died from H5N1 as well. 
Alarmed by what appeared to be a possible harbinger of a pandemic, the 
Hong Kong Health Authority led by Dr. Margaret Chan (now with the WHO) 
made the courageous decision to order the destruction of every single 
chicken, duck and egg in Hong Kong. Over 1 million birds were culled 
and human cases of H5N1 seemed to abate at eighteen cases and six 
deaths. Biosecurity measures in live markets were put in place that 
ensured better separation between humans and poultry; and policies were 
instituted that ensured tissue and blood samples from every shipment of 
poultry from China (mostly Guangdong and Shandong Provinces, where most 
poultry in Hong Kong originates) were taken and tested for H5N1. The 
goal was an effective animal surveillance system that would catch a 
possible outbreak before human cases could occur.
    H5N1 did reappear in February 2003 when two human cases were 
detected in Hong Kong from travelers returning from Southern China, 
suggesting that H5N1 was still circulating at least among domestic 
poultry during the prior year. While the Ministry of Agriculture of 
China never officially confirmed new avian cases linked to these human 
cases, these cases were quickly overshadowed by what became the Severe 
Acute Respiratory Syndrome (SARS) outbreak that dominated public health 
and global media attention in the Spring and Summer of 2003. When Korea 
reported its first ever case of H5N1 in December 2003, the current 
outbreak officially began.
    A couple of words on Hong Kong. Hong Kong is, of course, a unique 
situation. In 1997, Hong Kong became a Special Administrative Region of 
the People's Republic of China. However, with the ``two systems, one 
government policy,'' it is still, to a large extent, an economic entity 
separate from the mainland with different infrastructures, business 
practices, and economic development. Then as now, China cannot afford 
to lose the technological, economic, and academic advantages that Hong 
Kong brings to it, and thus allows it to continue to function--at least 
economically--at some level on its own. Further, Hong Kong is always at 
``Code Orange'' for avian influenza and as such maintains animal 
husbandry and biosecurity practices far different than most of rural 
mainland China. As such, until as recently as last month, Hong Kong 
managed to keep itself relatively H5N1 free, even in the face of 
continued outbreaks around. And, while no human cases from Hong Kong 
have been reported, it has an urban population still smarting from the 
memories of SARS, the economic wherewithal to pursue these high-level 
biosecurity measures, the geographic limits, and the community will to 
maintain this ``orange alert'' status for H5N1.
    As many of you know, recently Hong Kong reported H5N1 cases in 
native magpies, which has caused great concern for local health 
authorities, who fear H5N1 may have been brought to Hong Kong from the 
mainland, and, worse yet, that H5N1 may now be endemic within the 
territory. Indeed, scientists support their suspicions of importation 
of the disease from China, as recent studies from Hong Kong and funded 
by the National Institutes of Health of the U.S. Department of Health 
and Human Services have demonstrated that the H5N1 virus endemic 
throughout China is the likely source of outbreaks among poultry in 
surrounding countries and territories.
    Now then to China. As you know, about 60 percent of its population 
lives in rural areas. There are (or were) 15 billion domestic fowl in 
China last year. That is to say, one fifth of the world's poultry--
mostly chickens--but also significant numbers of ducks, turkey and 
geese--raised for domestic consumption come from China. China has both 
large scale production facilities and family ``backyard'' farms. 
Indeed, most rural families have 10-25 chickens and ducks, which are 
kept for food and income.
    So what is a country scared by their SARS experience and faced with 
an economic and possible public health disaster like H5N1 to do? As my 
colleague from USDA will discuss, outbreaks among birds must be 
contained, monitoring and reporting of suspect animal and human cases 
must continue in a transparent manner. However, given that most 
strategies for containment among birds include the culling and 
eradication flocks where exposure to H5N1 is suspected, posing a huge 
loss for farmers, the disincentives for reporting animal cases are 
high. Compensation for lost flocks is a complicated issue that an 
economist can address far better than I can. Further, for countries 
that export poultry (and China is one of them--mostly to Japan and Hong 
Kong) reporting cases to the international community can be viewed as a 
trade risk, and economic considerations sometimes take precedence over 
public health concerns.
    Having said that, lessons learned from HIV and SARS both appear to 
have encouraged China to recognize the need to investigate openly and 
report at least suspect human cases of H5N1. Up until the summer of 
2002, China continued to deny that HIV/AIDS had epidemic potential 
within its borders, preferring to place blame on outside influences. As 
my colleague from CSIS knows too well, United Nations organizations, 
donor countries such as Japan and the United States, as well as non-
governmental organizations like CSIS applied both public and private 
pressure on the government of China, trying to convince them that the 
economic and health impacts of not acknowledging and dealing with a 
burgeoning HIV/AIDS problem were far greater than continuing to deny 
it.
    As result, Chinese officials began to open up internationally (and 
more importantly, domestically) about HIV/AIDS in China. Within a year, 
China successfully competed for a $32 million two-year HIV grant from 
the Global Fund to Fight HIV/AIDS, Tuberculosis, and Malaria. At the 
same time, the United States and other donors made financial 
commitments to China's Ministry of Health for both research and 
technical assistance in confronting HIV. China had learned that 
openness about public health issues of global concern would not 
necessarily bring shame, but might actually bring financial resources.
    However, the lessons from HIV/AIDS did not seem to apply until late 
in the game with SARS. Reports of a strange new respiratory illness 
with high levels of mortality began to appear in late February 2003. 
When, what became the SARS outbreak finally ended later that summer, 
over 8000 cases would be reported, with 775 deaths, in 30 countries on 
6 continents. As noted earlier, public health practitioners were 
originally concerned that the SARS outbreak was the next flu pandemic 
and indeed, two early suspect SARS cases proved to be H5N1. Early on, 
Chinese officials were concerned about the impact an outbreak of 
disease of unknown origin would have on travel on the Chinese New 
Year--the largest travel day of the year worldwide. The government 
chose to delay entry to international experts, and continued to 
question if SARS had epidemic potential domestically. It was only when 
rumors about the disease began to have an impact on tourism, as well as 
rising international outcry at cover-ups, that China opened its borders 
to scrutiny, but as usual, in a carefully monitored and controlled 
fashion.
    And, by the end of the SARS outbreak, according to the World Bank, 
the impact on the Gross Domestic Products of countries in the region 
was between 0.4 and 0.5 percent, between $20 and 25 billion. In the 
process, a number of high-level Chinese officials, including the 
Minister of Health and the Mayor of Beijing, lost their jobs.
    And yet, embarrassingly for China, it wasn't over yet. In March 
2004, an accident at the National Institute of Virology of China in 
Beijing, China's premier virology laboratory infected two researchers 
with SARS and the Institute closed. By the end of the investigation, 
nine new cases of SARS were discovered, and one person died, all linked 
to the laboratory accident. While the global health community quickly 
commended the Chinese government for taking swift action in reporting 
the cases and for quickly closing the facility, the government lost its 
only internationally 
accredited laboratory with high enough bio-safety and bio-security to 
deal with infectious agents such as SARS and H5N1.
    This double whammy of HIV/AIDS and SARS clearly affected the 
internal culture of the Ministry of Health. The WHO has positively 
commented on how quickly the Ministry of Health reports any outbreak of 
human disease. When the first suspect human case of H5N1 finally 
appeared (as many outside observers were predicting) in late October 
2005, the Ministry of Health engaged the international health 
community in inviting outsiders in to work side by side with Chinese 
experts in 
investigating the cases.
    I will note that China's idea of transparency and openness is still 
one with a degree of control involved. All decisions and reports on 
human cases are made by the central government not by local officials, 
which can add time to official announcements; further anecdotal reports 
suggest that some restrictions have been placed on the press. 
Government announcements come with clearly defined solutions already in 
play, suggesting that the government has the situation under control. 
Nevertheless, the Ministry of Health's willingness to open itself to 
international scrutiny is a huge step, and China, has been publicly 
praised internationally and promised further assistance in dealing with 
human cases as a result.
    Unfortunately, the lessons learned from SARS by the Ministry of 
Health do not seem to have translated as well to the Ministry of 
Agriculture. For example, international observers have long suspected that H5N1 has been circulating among backyard poultry in China (the 1997 outbreak in Hong Kong supports this idea). Nevertheless, the Ministry of Agriculture 
reported no outbreaks of H5N1to the OIE until April 2004, when other 
countries in the region reported cases. Further, when wild birds began 
dying in Qinghai in April 2005, the Ministry of Agriculture delayed 
allowing international scientists and observers into the actual areas 
where the deaths had occurred, citing so-called security concerns, 
although the deaths were largely in nature preserves.
    Finally, late last summer, as wild and domestic birds continued to 
die across China, international observers were invited to see the 
veterinary laboratory in Harbin, which had tested tissue samples from 
dead birds. The Ministry of Agriculture continued to refuse to share 
samples from their avian cases with international bodies such as the 
FAO and OIE. Equally challenging, the Ministry of Agriculture 
refused to share samples with the Ministry of Health, claiming flatly 
that this was not a human health issue; merely an agricultural and 
trade issue. While the Ministry of Agriculture has recently been more 
forthcoming with reports of outbreaks, the timing of this willingness 
to share seems to coincide with both reports of human cases, large-
scale Ministerial poultry vaccination campaigns targeted at the 
backyard farmer, and Wen Jiabao's January 2006 public commitment at the 
Beijing Donor's Conference to cooperate with the international 
community in containing the spread of disease in the region.
    There is no question that we see an increased level of commitment 
and cooperation by the Chinese Government in addressing the avian 
influenza threat. Both in-country coordination between Ministries, and communication with outside organizations have improved. More importantly the Ministry of Health has shared samples from human cases through the WHO network. 
However, it is important to point out that human cases of H5N1 in China 
are often recognized prior to recognition of disease in poultry in the 
same locales, indicating the shortcomings of the animal disease 
surveillance and reporting system. In some of the human cases reported 
over the past few months, the victims came from regions in which no 
previous bird infections had been reported--even though the 
transmission occurred from contact with infected poultry. In general, 
areas needing strengthening include (1) surveillance--both human and 
animal; (2) general public and farmer awareness about the disease and 
the need to report; and (3) multisectoral cooperation.
    China has also recently begun a policy of being both a donor and 
recipient of international assistance, reaching out politically and 
financially to partners in the region. Due to its economic progress, it 
has become ineligible for certain kinds of very-low or no- interest 
loans from the World Bank and its regional organizations. Even with the 
Global Fund to Fight HIV/AIDS, Tuberculosis and Malaria, China made a 
point of donating $10 million to the Fund before becoming a recipient 
of its grants. More recently, China showed great leadership in hosting 
the Beijing Pledging Conference for Avian Influenza last month, and 
made a point of being a donor with a pledge of $10 million.
    Now, I would like to say a couple of things about the U.S. response 
to avian influenza, and then our relationship with China in particular.
    As you know, the United States takes avian and pandemic influenza 
extremely seriously, and is mobilizing resources both at home and 
abroad to cope with a potential pandemic. The U.S. Government, for 
example, has formed the International Partnership to Fight Avian and 
Pandemic Influenza, affectionately known as IPAPI. Over 80 countries 
participated in the IPAPI's first meeting in October 2005, and 
activities under IPAPI to coordinate donor efforts, maintain 
transparency of data, and develop global strategies to prepare for and 
contain a possible pandemic continue to develop. At the Beijing 
Pledging Conference last month, $1.9 Billion was raised for 
international flu efforts. The United States was the largest single 
country to make a pledge, with its pledge of $334 Million in grant 
funding from fiscal year 2005 and 2006. (The World Bank made the 
largest overall pledge--$500 Million in reprogrammed funds). These 
funds are for international efforts to prepare for and contain an avian 
and, possibly a human influenza pandemic.
    While no specific amount is targeted at China as of yet (those 
decisions are being made as I speak), funds will be coordinated with 
other donor activities, and will be aimed at countries and regions 
where animal disease has recently appeared, or shows no signs of 
abating, or where there are human cases. In addition to these 
international activities, the U.S. Government has established a 
platform with China, the Program on Emerging and Reemerging Infectious 
Diseases, that will promote cooperation between the two countries on a 
number of infectious diseases, but first on avian influenza. This 
platform builds on long-standing health and science cooperation between 
the United States and China that dates back to 1977. In 2004, HHS alone 
funded more than $34 million worth of bio-medical research and basic 
public health activities with China and we foresee that figure 
increasing, not decreasing. HHS also has a staff of seven on the ground 
in Beijing, led by our Health Attache, Dr. Craig Shapiro. Because of an 
agreement that HHS Secretary Leavitt signed in October of last year, we 
hope to be able to increase that staff by as many as three bringing us 
to a total of 10, all aimed at emerging infections such as H5N1. It is 
our belief that by working with China as a partner to confront issues 
of public health important such as avian influenza, we will be able to 
create an environment that not only promotes scientific and bio-medical 
transparency and sharing of data, but also will improve China's public 
health surveillance and disease reporting networks, so that epidemics 
may be prevented and contained, not left to fester quietly. China, the 
fourth largest country with 1/5 of the world's population and 7 percent 
of the world's arable land, must be a partner in any global effort to 
prepare for an influenza pandemic.
    Lastly, before I end, I would like to point you all to a number of 
valuable web sites for further information.

    1. www.pandemicflu.gov is the U.S. government's primary site for 
all things flu. It includes the U.S. Government's national domestic 
plan for pandemic influenza and has links to HHS, to USDA, and other 
U.S. Government partners in the pandemic influenza efforts.
    2. http://www.who.int/csr/disease/avian--influenza/en/ is the web 
site for all things influenza for WHO.
    3. www.oie.int is the web site for the OIE.
    4. www.fao.org is the FAO web site. FAO has some great maps that 
show the distribution of H5N1 globally, and is also an excellent 
resource for information about food safety and economic issues and 
H5N1.

    I have also brought copies of Wen Jiaobao's speech from the Beijing 
conference and am happy to share copies. Last, if you haven't already 
done so, I would encourage you to thumb through a copy of John M. 
Barry's, The Great Influenza: The Epic Story of the Deadliest Plague in 
History, Penguin Books, 2004. As you may have heard, this is the flu 
``bible'' at HHS, and Secretary Leavitt, after he traveled to Southeast 
Asia in October 2005 (5 countries, 10 days, we were tired but he 
wasn't) gave copies of Barry's books to heads of state with key 
sections marked with post-it notes.
    Thank you very much for your attention. I'm glad to answer any 
questions at this time.
                                 ______
                                 

                    Prepared Statement of Bates Gill

                           FEBRUARY 24, 2006

                              INTRODUCTION

    Let me begin by thanking the Commission Chairman and Staff Director 
for inviting me to provide my views this afternoon. I commend the 
Commission for taking up issues related to China's response to avian 
flu.
    This is clearly an important and timely hearing. To date, the 
disease has spread from Asia to the Middle East, Europe and Africa with 
the prospect that it might also spread to the Americas and elsewhere. 
Without prompt and effective detection and containment, the spread of 
avian influenza could potentially cause severe human casualties and 
catastrophic socioeconomic consequences, and threatens regional and 
global prosperity and security. The World Bank has predicted that the 
first year of an avian flu pandemic could cost the world economy up to 
USD 800 billion.\1\
---------------------------------------------------------------------------
    \1\ BBC, ``$1.9 Billion Pledged for bird flu fight,'' January 18, 
2006, accessed at: http://news.bbc.co.uk/go/pr/fr/-/1/hi/world/asia-
pacific/4622982.stm.
---------------------------------------------------------------------------
    With this in mind, and in response to the Commission's request, I 
have divided the remainder of this testimony into three parts, 
covering:

<bullet> A brief overview of the current situation concerning avian flu 
in China
<bullet> Steps that have been taken by the Chinese government in 
response
<bullet> Challenges that are remaining in China's approach to avian flu

               A BRIEF OVERVIEW OF THE CURRENT SITUATION

    China is not only the world's most populous nation, but also the 
world's biggest poultry producer. According the Food and Agriculture 
Organization of the United Nations (FAO), China has one-fourth of the 
world's chicken, two-thirds of the world's domesticated ducks, and 
almost nine-tenths of the world's domesticated geese. The sheer size of 
China's human and poultry populations make the country a pivotal point 
in the global efforts to prevent and prepare for a possible human 
influenza pandemic.
    According to the World Health Organization (WHO), as of February 
13, 2006, China has reported the country's 12th laboratory confirmed 
case of human infection with the H5N1 avian influenza virus, eight of 
which have been fatal.\2\ The most 
recent death was a 20-year-old female farmer from the county of Suining 
in the south-central province of Hunan. China announced its first 
confirmed human case of infection in mid-November last year, and since 
then sporadic human cases have occurred in seven provinces and 
regions--Anhui, Fujian, Guangxi, Jiangxi, Hunan, Liaoning, and 
Sichuan.\3\
---------------------------------------------------------------------------
    \2\ WHO Avian influenza--situation in China--update 4, February 13, 
2006, accessed at: http://www.who.int/csr/don/2006--02--13a/en/
index.html.
    \3\ WHO Avian influenza--situation in China--update 3, February 9, 
2006, accessed at: http://www.who.int/csr/don/2006--02--09/en/
index.html.
---------------------------------------------------------------------------
    China has recently experienced an intensified recurrence of highly 
pathogenic avian influenza (HPAI) in poultry. According to WHO, since 
May 2005 Chinese agricultural authorities have reported over 32 poultry 
outbreaks across the country, the majority of which were reported in 
October and November 2005. However, about one-third of China's reported 
human cases of avian flu occurred in areas where no recent poultry 
outbreaks have been officially reported.\4\ This has become a growing 
cause for concern. Some health experts suspect that environmental 
pollution by sick or dead birds might be to blame for such human cases.
---------------------------------------------------------------------------
    \4\ Xinhua, ``PRC officials blame environmental pollution for human 
cases of bird flu,'' February 10, 2006.
---------------------------------------------------------------------------
                              STEPS TAKEN

    China's health and agriculture authorities have become increasingly 
vigorous to contain HPAI among poultry and prevent its spread from 
birds to humans. The 
government has conducted large-scale poultry culling in known avian 
flu-infected regions. China has also launched tightened quarantine 
measures, extensive vaccination, and preventive measures against human 
infection. Meanwhile, Beijing has called for enhanced cooperation among 
all countries, between governments and international organizations, 
among governments, business and non-governmental organizations (NGOs) 
to curb the epidemic. Compared to the period of Severe Acute 
Respiratory Syndrome (SARS) outbreaks in 2003, Beijing this time has 
been praised for its efforts to control the avian flu. A senior WHO 
official for communicable diseases has recently commented that ``the 
Chinese government has taken very effective measures, and they are 
making improvements every month, even every day.'' \5\ Another WHO 
regional director for the western Pacific said Beijing's response to 
avian flu so far had been ``aggressive and thorough once the outbreak 
was recognized.'' \6\
---------------------------------------------------------------------------
    \5\ Xinhua, ``WHO praises China's efforts in controlling avian 
influenza,'' February 4, 2006, accessed at: http://www.china.org.cn/
english/2006/Feb/156852.htm.
    \6\ South China Morning Post, ``Optimism surrounds bird flu 
conference,'' January 18, 2006.
---------------------------------------------------------------------------
                            DOMESTIC EFFORTS

    China's central government leadership exhibits a strong political 
commitment to tackling the avian flu outbreaks. The Chinese Ministry of 
Health (MOH) launched the national contingency plan for preparedness 
against a possible outbreak of pandemic influenza in September 2005. 
MOH also urged all localities to draft their own contingency plans in 
accordance with local conditions and make good preparations for a 
possible flu pandemic. According to the plan, the MOH is held 
accountable for organizing and coordinating epidemic contingency work, 
health authorities above the county level should ensure the collection, 
registry and delivery of flu virus samples for testing, and the 
national Center for Disease Control and Prevention (CDC) should 
establish a national system to manage the surveillance information.\7\
---------------------------------------------------------------------------
    \7\ People's Daily, ``China launches contingency plan for possible 
pandemic flu,'' September 29, 2005, accessed at: http://
english.people.com.cn/200509/29/eng20050929--211570.html.
---------------------------------------------------------------------------
    More recently, the State Council published national response plans 
for nine types of emergencies, one of which is public health incidents. 
The emergency plans are believed to be the first comprehensive and 
detailed crisis management plans in China. The new plans, which were 
released in January this year, listed preparedness, coordination of 
related parties and information transparency among the key elements of 
emergency management.\8\ With new and strengthened emergency planning, 
China is demonstrating a greater awareness of the need for a prompt and 
effective response to such crises as the SARS epidemic in 2003 and 
potential future avian flu outbreaks.
---------------------------------------------------------------------------
    \8\ China Daily, ``Emergency planning to help crisis response,'' 
January 24, 2006.
---------------------------------------------------------------------------
    Changes in official structures have been an encouraging part of the 
government's anti-flu efforts. The MOH has set up a special department 
to deal with avian flu. The Ministry has also established 192 
monitoring spots throughout the country for flu outbreaks. Following 
the State Council's emergency response plans, the MOH announced the 
formation of a national expert team in response to emergent public 
health incidents, consisting of 105 experts in the field including 
communicable diseases, poisoning treatment and early warning 
networks.\9\ In early November 2005, the central government set up a 
general directorial office for avian flu prevention, bringing together 
six agencies in charge of food security, animal health and prevention 
science under a unified system, in order to coordinate the internal 
bureaucratic response.\10\
---------------------------------------------------------------------------
    \9\ Xinhua, ``PRC health ministry sets up team of experts to deal 
with disease outbreaks,'' January 23, 2006.
    \10\ Beijing Review, ``Threat Management,'' December 15, 2005, Vol. 
48, No. 50.
---------------------------------------------------------------------------
                       INTERNATIONAL COOPERATION

    Beijing has demonstrated greater openness and commitment on the 
international front as well. On January 17 and 18, 2006, the 
international pledging conference on avian and human influenza was co-
hosted in Beijing by the Chinese government, the European Commission 
and the World Bank. The meeting of the delegates from more than 100 
countries, regions and international organizations has led to USD 1.9 
billion to fight avian flu worldwide, a higher figure than 
expected.\11\ Chinese Premier Wen Jiabao pledged that China would 
donate USD 10 million to help the global fight against the avian 
flu.\12\
---------------------------------------------------------------------------
    \11\ BBC, ``$1.9 billion pledged for bird flu fight,'' January 18, 
2006, accessed at: http://news.bbc.co.uk/1/hi/world/asia-pacific/
4622982.stm.
    \12\ Xinhua, ``Wen Jiabao says PRC to donate $10 million to support 
avian flu prevention,'' January 18, 2006.
---------------------------------------------------------------------------
    The conference endorsed the ``Beijing Declaration,'' which promised 
to enhance sharing of information and relevant biological materials, 
increase cooperation on global research and development of safe and 
effective animal and human vaccines and antiviral medicines for humans, 
and to periodically evaluate the impact of 
national pandemic influenza preparedness and action plans.\13\ This 
meeting was another positive example of China's effort to become a more 
responsible global player on international health issues.
---------------------------------------------------------------------------
    \13\ FAO, Beijing Declaration at the International Pledging 
Conference on Avian and Human Pandemic Influenza, January 17-18 2006, 
Beijing, accessed at: http://www.fao.org/ag/againfo/subjects/documents/
ai/beijingdeclaration.pdf.
---------------------------------------------------------------------------
    Beijing has also worked with the United States to bolster avian flu 
prevention. On October 31, 2005, Chinese Health Minister Gao Qiang 
visited Washington and signed with U.S. Health and Human Services (HHS) 
Secretary Michael Leavitt a Memorandum of Understanding (MOU) on 
collaboration on emerging and remerging infectious diseases between the 
United States and China. As an important step for further cooperation, 
the MOU set up the mechanism for a biennial health ministerial meeting, 
and aimed to strengthen bilateral collaboration on emerging infectious 
disease including avian flu, HIV/AIDS, and West Nile virus. In 
particular, the United States pledged to help enhance the capacity of 
Chinese public health laboratories, train biomedical research, 
prevention and control personnel, conduct emerging infectious disease 
surveillance, and cooperate on research and development of vaccines and 
drugs.

                          REMAINING CHALLENGES

    During the SARS outbreak two years ago, China encountered intense 
criticism from the international community for its delayed response and 
cover-up at the initial stages of the epidemic. Facing a potential 
influenza pandemic, the Chinese government has made noticeable progress 
in terms of transparency of information and international cooperation. 
However, there are still a range of lingering problems, particularly at 
the local level, which may limit the success of Beijing's efforts to 
bring the disease under control.

Transparency
    The growing political determination within the central leadership 
needs to be translated into local action. Fearful of censure, Chinese 
provincial and county officials sometimes might choose to conceal 
infection cases from the central government. This was at least the case 
during the early stages of the SARS outbreak. 
Additionally, to some predominantly poor Chinese farmers, economic 
damage brought by anti HPAI-measures is often a more pressing concern 
than potential health risks, giving them an incentive to hide an 
outbreak. Transparency and accountability mechanisms need to be 
introduced and strengthened to avoid potential underreporting at all 
levels. Involving community groups in disease monitoring and reporting 
can be an effective approach to enhance transparency.

Technical Capacity and Financial Resources
    Lack of capacity and resources at local levels remains a large 
question mark in China's handling of avian flu. Health Minister Gao 
Qiang identified his largest concern in a press conference in November 
2005 as ``the inability of our medical and quarantine personnel at the 
local level to diagnose and discover epidemics in a timely fashion due 
to lack of skills and relatively backward equipment.'' \14\ The country 
still faces a shortage of experienced and qualified professionals, 
resulting in misdiagnosed patients as having pneumonia instead of avian 
flu. There is also a great need for qualified and experienced 
veterinarians. Meanwhile, many villages and towns do not have effective 
surveillance systems, leading to delayed reporting of outbreaks. Only 
after patients admitted into hospitals are identified as having the 
H5N1 virus do local officials begin investigations in patients' 
villages.
---------------------------------------------------------------------------
    \14\ Beijing Review, ``Threat Management,'' December 15, 2005, Vol. 
48, No. 50.
---------------------------------------------------------------------------
    The reality is that much of the country's poultry is raised in 
backyard farms in close proximity to humans in rural China, where 70 
percent of the nation's population lives. Close contacts between people 
and birds are so frequent that the risk of human infection is high. 
However, according to a report released by the Development Research 
Center of the State Council, a think-tank directly under the cabinet, 
90 percent of China's rural population is not covered by any form of 
medical insurance. The same report also notes that ``China's medical 
reform has been unsuccessful because it has become unbearably expensive 
to patients and many dare not go to hospital when they fall ill.'' \15\ 
Lack of medical insurance, together with ill-equipped countryside 
clinics and hospitals, makes rural China an extremely vulnerable spot 
in the face of infectious disease outbreaks.
---------------------------------------------------------------------------
    \15\ Beijing Review, ``The Medical Reform Controversy,'' September 
22, 2005, Vol. 48, No. 38.
---------------------------------------------------------------------------
    China's animal epidemic prevention statue requires that local 
authorities cull all domesticated birds within a 3-kilometer, or 1.8 
mile, radius and vaccinate the remaining birds in a 5-kilometer radius 
vicinity. To date, over 24 million birds have been culled.\16\ Farmers 
face a significant loss in business and livelihood without appropriate 
compensation or reimbursement, which represents a substantial financial 
commitment for local governments. As a matter of fact, the Ministry of 
Finance and the Ministry of Agriculture jointly issued a regulation 
that compensation for each bird destroyed for avian flu prevention 
would be approximately RMB 10 (about USD 1.25), with local governments 
allowed to set the exact standard in accordance with local 
conditions.\17\ Even at that seemingly low cost, the mass culling of 
birds would surely strain local governments' finances.
---------------------------------------------------------------------------
    \16\ WHO Avian influenza--situation in China--update 2, January 25, 
2006, accessed at: http://www.who.int/csr/don/2006--01--25a/en/
index.html.
    \17\ Caijing Magazine, ``Flu outbreaks challenge grassroots 
epidemic prevention system,'' November 14, 2005, Issue 146.
---------------------------------------------------------------------------
Public Awareness
    As a result of poor education conditions and lack of available 
resources, public awareness and knowledge of a possible pandemic is 
limited in many parts of China, especially in rural areas. This adds a 
great barrier to overcome in terms of avian flu education and 
prevention. Basic information about the symptoms, how it is contracted, 
and where the breeding grounds for H5N1 virus are and other general 
information should be distributed to the public, particularly the rural 
population, in order to instill preventative measures to combat this 
deadly virus. As the ``Beijing Declaration'' called for mobilization of 
all social sectors including nongovernmental civil society to effect a 
coordinated response,\18\ community-based grassroots NGOs should be 
encouraged to partner with the government to promote public education 
and enhance public awareness, in particular in hard-to-reach 
populations and areas. China's HIV/AIDS NGOs have tentatively begun to 
assist the government to reach out to socially marginalized groups and 
provide training, care and support. The role of NGOs in the fight 
against avian flu should be expanded as well.
---------------------------------------------------------------------------
    \18\ FAO, Beijing Declaration at the International Pledging 
Conference on Avian and Human Pandemic Influenza, January 17-18 2006, 
Beijing, accessed at: http://www.fao.org/ag/againfo/subjects/documents/
ai/beijingdeclaration.pdf.
---------------------------------------------------------------------------

                                 <all>

</pre></body></html>
